<html>
<title> - THE IMPACTS OF THE DEPARTMENT OF TRANSPORTATION'S COMMERCIAL DRIVER HOURS-OF-SERVICE REGULATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                    THE IMPACTS OF THE DEPARTMENT OF
                   TRANSPORTATION'S COMMERCIAL DRIVER
                      HOURS-OF-SERVICE REGULATIONS

=======================================================================

                                (113-25)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-507 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina

                                  (ii)









                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
JOHN L. MICA, Florida                MICHAEL E. CAPUANO, Massachusetts
FRANK A. LoBIONDO, New Jersey        MICHAEL H. MICHAUD, Maine
GARY G. MILLER, California           GRACE F. NAPOLITANO, California
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
SHELLEY MOORE CAPITO, West Virginia  STEVE COHEN, Tennessee
DUNCAN HUNTER, California            ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  DONNA F. EDWARDS, Maryland
LOU BARLETTA, Pennsylvania           ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
LARRY BUCSHON, Indiana               RICHARD M. NOLAN, Minnesota
BOB GIBBS, Ohio                      ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York           DINA TITUS, Nevada
STEVE SOUTHERLAND, II, Florida       SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin, Vice      ELIZABETH H. ESTY, Connecticut
Chair                                LOIS FRANKEL, Florida
STEVE DAINES, Montana                CHERI BUSTOS, Illinois
TOM RICE, South Carolina             NICK J. RAHALL, II, West Virginia
MARKWAYNE MULLIN, Oklahoma             (Ex Officio)
ROGER WILLIAMS, Texas
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration, United States Department of Transportation.....     5
Steve Williams, Chairman and CEO, Maverick USA, Inc., on behalf 
  of the American Trucking Associations..........................     5
Major Mark Savage, President, Commercial Vehicle Safety Alliance.     5
Edward Stocklin, President, Stocklin Trucking, LLC, on behalf of 
  the Owner-Operator Independent Drivers Association.............     5
Joan Claybrook, Consumer Cochair, Advocates for Highway and Auto 
  Safety, Former Administrator, National Highway Traffic Safety 
  Administration.................................................     5
Jeffrey Dean Hinkle, Transportation Manager, Chandler Concrete 
  Company, Inc., on behalf of the National Ready Mixed Concrete 
  Association....................................................     5

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Andy Barr, of Kentucky......................................    45

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Anne S. Ferro:

    Prepared statement...........................................    47
    Answers to questions from the following Representatives:

        Hon. Thomas E. Petri, of Wisconsin.......................    53
        Hon. Richard M. Nolan, of Minnesota......................    54
        Hon. Sam Graves, of Missouri.............................    58
        Hon. Lou Barletta, of Pennsylvania.......................    59
        Hon. Peter A. DeFazio, of Oregon.........................    59
        Hon. Michael H. Michaud, of Maine........................    61
Steve Williams:

    Prepared statement...........................................    63
    Answer to question from Hon. Richard M. Nolan, of Minnesota..    77
Major Mark Savage:

    Prepared statement...........................................    79
    Answers to questions from the following Representatives:

        Hon. Richard M. Nolan, of Minnesota......................    86
        Hon. Lou Barletta, of Pennsylvania.......................    87
Edward Stocklin:

    Prepared statement...........................................    89
    Answer to question from Hon. Richard M. Nolan, of Minnesota..    99
Joan Claybrook:

    Prepared statement...........................................   114
    Answers to questions from Hon. Richard M. Nolan, of Minnesota   156
Jeffrey Dean Hinkle, prepared statement..........................   160

                       SUBMISSIONS FOR THE RECORD

LaMont Byrd, Director, International Brotherhood of Teamsters, 
  written statement..............................................   166
Bruce T. Chattin, Executive Director, Washington Aggregates and 
  Concrete Association, written statement........................   172
Food Marketing Institute, written statement......................   175
Daphne Izer, Founder, Parents Against Tired Truckers (P.A.T.T.), 
  on behalf of P.A.T.T. members Steve Izer, Jane Mathis, and 
  Lawrence Liberatore, written statement.........................   179
Snack Food Association, written statement........................   183


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
  THE IMPACTS OF THE DEPARTMENT OF TRANSPORTATION'S COMMERCIAL DRIVER 
                      HOURS-OF-SERVICE REGULATIONS

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Today's 
hearing will focus on the U.S. Department of Transportation's 
commercial driver hours-of-service regulations.
    July 1st, property-carrying commercial drivers will be 
required to meet new hours-of-service regulations that will 
have significant impacts on a large segment of the trucking 
industry. Truck drivers will be required to take a 30-minute 
rest break every 8 hours, and will be able to restart their 
hours-of-service clock only once a week, by not driving for a 
34-hour stretch that includes two 1:00 to 5:00 periods.
    The FMCSA promulgated these new regulations in December of 
2011 with the intent to promote safety and to protect the 
health of drivers. By allowing drivers ample opportunity to get 
the proper amount of rest, the regulations are intended to help 
reduce crashes by reducing driver fatigue. Finding the right 
balance between providing drivers the opportunity to rest and 
the flexibility to account for unanticipated delays during the 
workday has been a challenge.
    Since Congress directed the Department of Transportation to 
issue a rulemaking on commercial driver hours of service in 
1995, the regulations have been in constant litigation which 
has led to confusion among the trucking industry and the 
enforcement community. Every stakeholder that is impacted by 
hours-of-service regulation has passionate beliefs on the 
correct way to implement them, and it is no wonder that 
litigation has persisted.
    The regulations that take effect on July 1st are currently 
being deliberated by the U.S. Court of Appeals for the District 
of Columbia Circuit.
    The real-world implications of these new regulations are 
difficult to predict because of the diverse nature of the 
trucking industry. And I am receptive to the concerns of many 
of my constituents who argue that a one-size-fits-all approach 
won't provide the flexibility some companies need to take the 
appropriate rest breaks. For example, I have been asked, if a 
driver is resting in a chair while waiting for a load to be 
unloaded or for some other reason and is technically on duty 
but undisturbed for 30 minutes, why can't such a break be 
counted toward the 30-minute break requirement?
    Some specific trucking operations, such as oil field 
equipment operators, have a special exemption from some 
provisions of the hours-of-service regulations; why not others 
with similar operating characteristics?
    We most frequently hear concern where driving is just one 
small part of the overall job responsibilities, and not the 
long-haul drivers who are away from home for several days at a 
time. For instance, I have heard from hundreds of drivers in my 
State of Wisconsin who transport materials and equipment for 
highway construction who drive only 2 or 3 hours during a 
workday, but seemingly will be very much affected. Not only 
will the drivers themselves be impacted, but how our highway 
projects are completed will be affected as well. We will hear 
more about these specific concerns from one of our witnesses 
today.
    I hope today's discussion will focus attention on these 
issues, and potentially lead to proposals that allow drivers to 
efficiently complete their jobs without compromising safety. 
And I am sure that safety is the primary goal of all of today's 
witnesses. Effective commercial driver hours-of-service 
regulation will help reduce fatigue-related truck crashes and 
save lives on our Nation's highways. I hope today's hearing 
will provide our committee members with insight into this 
important national safety issue.
    I look forward to hearing from our witnesses, and recognize 
my colleague, Mr. DeFazio, for any opening statement he might 
wish to make.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I think 
the common ground here is--and I don't think anyone will 
disagree--that we want to prevent fatigue-related accidents, 
you know. But getting to that point using the best data 
available, the best science available, seems quite difficult 
and tortuous.
    As I was walking in, I walked by some staff and I said, 
``If any of you can explain to me the new hours-of-service rule 
in 30 seconds or less, I will give you a gold star,'' and they 
just kind of laughed, because I have struggled with the restart 
and the--anyway, it just goes on and on. I understand what 
FMCSA is trying to do there, in terms of both protecting safety 
and providing flexibility. It is a very, very difficult kind of 
combination.
    I would observe, as I have previously, that one of the most 
neglected and disturbing causes of people driving over hours of 
service, is basically you have a lot of people who are paid by 
the load, and not by the hour in this industry. And they are in 
external diseconomy to the people who actually provide for, you 
know, the warehousing and other things of goods, i.e., it 
doesn't cost them anything if you have to sit there 8 hours, 
and they don't care. We used to have rules regarding detention 
time; we don't. I think we should go back to having rules 
regarding detention time. It would give us a much more 
efficient system, overall. It would give us a safer system 
overall, and it would be a lot fewer people tempted to or 
forced to drive over their allowable hours of service, if we 
could have just-in-time delivery, or close to it, at the 
warehouses and other places.
    So, I am hopeful that we will broadly address these issues 
today, try and find a place that makes sense. Because, I mean, 
right now, I mean, we have got one side, the safety advocates, 
suing because a rule they believe is overly permissive. We have 
the industry suing because they believe the rule is overly 
restrictive. The courts have ruled twice in favor of the safety 
advocates. Who knows what they will rule this time? And FMCSA 
is going ahead with implementation before the judgment of the 
court, which I thought--you know, I have got to disagree with 
some folks, I thought it would have been prudent to wait and 
see.
    But that is where we are today. That is what people have to 
address on this panel. And I really look forward to some of you 
sorting this all out for me.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. And I would like to welcome our panel 
and thank you for the prepared statements that you have 
submitted, invite you to--oh, yes, excuse me. Mr. Shuster.
    [Laughter.]
    Mr. Shuster. Thank you, Mr. Petri. I thank you for holding 
this hearing today, and thank our witnesses for being here 
today. The new hours-of-service regulations that go into effect 
July 1st are something that we, as the committee, need to fully 
understand, how they are going to be implemented, because it 
has significant impact on the trucking companies in this 
country.
    As Mr. Petri mentioned, I think this is a one-size-fits-all 
approach to safety. And while safety is paramount to all of us, 
whether we are here in Congress, or whether we are owners of 
trucking companies--I know Mr. Stocklin here and Mr. Williams, 
who run trucking concerns--if they are good business people, 
safety should come first, and it does come first.
    So, again, we need to focus on that. But also, make sure 
that when we are implementing new rules and regulations, we let 
the science drive it, not a knee-jerk reaction to something 
that happened, you know, last year or two years--but when I 
look at the statistics since 2005, the numbers have been 
steadily declining on fatalities and accidents. So that is 
something we ought to make sure we put into the equation.
    It was mentioned there are some exemptions for some of 
these operations, whether it is emergency services and disaster 
or oil field and others out there. But again, this committee 
needs to make sure that we fully understand how we are going 
forward.
    There are new technologies out there, also. I was at Mack 
Trucks in Hagerstown, Maryland, and they let me drive a truck 
which was not on the highway--so for all those concerned about 
safety, know that I was not in the flow of traffic--but it was 
an automatic transmission, which they, the folks at Mack told 
me, it causes less fatigue on drivers. They don't have to fight 
the clutch and the stick.
    So, I hope that is something we are looking at. And they 
say they are selling more and more of these because they--to 
attract a different kind of driver. It is less intimidating to 
some folks that otherwise wouldn't drive a truck. And so, 
again, I hope we are looking at those new technologies and 
taking that into the equation because, as I said, there is less 
fatigue to a driver.
    And of course, another great concern of mine, whether it is 
on this committee or any committee in Congress, is the growth 
of the fourth branch of Government, and that is the Federal 
bureaucracies taking more--gaining more and more power, with 
Congress having little to say in these matters. So our 
oversight is going to be critical to make sure that we, as the 
elected branch of Government, make sure that we don't allow the 
bureaucracies to overregulate and do things that are going to 
cause great harm to this economy.
    A statistic I saw in 2007, the--while the Congress passed 
138 laws, the Federal agencies put forth over 2,900 new rules 
and 61 significant regulations without Congress or without many 
stakeholders having much to say about it. So, again, this is a 
great concern of mine. You know, we are going to have 
aggressive oversight to make sure that these rules don't 
overstep their bounds, that they certainly want to make sure 
that they provide safety to the traveling public and on our 
highways. But again, it should be based on the science and not 
based on an emotional play here.
    So, again, I thank the chairman for holding this hearing, 
and yield back.
    Mr. Petri. Thank you. Our panel of witnesses consists of 
Administrator Anne Ferro, who is the Federal Motor Carrier 
Safety Administration representative; Mr. Steve Williams, the 
chairman and CEO of Maverick USA, Inc., on behalf of the 
American Trucking Associations; Major Mark Savage, president, 
Commercial Vehicle Safety Alliance; Mr. Edward Stocklin, 
president, Stocklin Trucking, on behalf of the Owner-Operator 
Independent Drivers Association; and Ms. Joan Claybrook, 
consumer cochair, Advocates for Highway and Auto Safety, Former 
Administrator, National Highway Traffic Safety Administration.
    Welcome to all of you, and Mr. Jeffrey Dean Hinkle, who is 
transportation manager, Chandler Concrete Company, Inc., on 
behalf of the National Ready Mixed Concrete Association. Excuse 
me. And again, by unanimous consent, your full statements will 
be made a part of this record.
    We would invite you to summarize them in approximately 5 
minutes. And to help you do that, the green light turns yellow 
a minute before the 5 minutes are up.
    And we will begin with Administrator Ferro.

 TESTIMONY OF HON. ANNE S. FERRO, ADMINISTRATOR, FEDERAL MOTOR 
  CARRIER SAFETY ADMINISTRATION, UNITED STATES DEPARTMENT OF 
TRANSPORTATION; STEVE WILLIAMS, CHAIRMAN AND CEO, MAVERICK USA, 
 INC., ON BEHALF OF THE AMERICAN TRUCKING ASSOCIATIONS; MAJOR 
  MARK SAVAGE, PRESIDENT, COMMERCIAL VEHICLE SAFETY ALLIANCE; 
 EDWARD STOCKLIN, PRESIDENT, STOCKLIN TRUCKING, LLC, ON BEHALF 
  OF THE OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION; JOAN 
  CLAYBROOK, CONSUMER COCHAIR, ADVOCATES FOR HIGHWAY AND AUTO 
 SAFETY, FORMER ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY 
    ADMINISTRATION; AND JEFFREY DEAN HINKLE, TRANSPORTATION 
  MANAGER, CHANDLER CONCRETE COMPANY, INC., ON BEHALF OF THE 
           NATIONAL READY MIXED CONCRETE ASSOCIATION

    Ms. Ferro. Chairman Petri, Ranking Member DeFazio, Chairman 
Shuster, members of the subcommittee, thank you for inviting me 
today to discuss how changes to the new hours-of-service rule 
will improve safety on our roadways and ultimately save lives.
    The top priority of the Federal Motor Carrier Safety 
Administration is safety. The number of people killed each 
year, as the chairman indicated, and those killed in large 
truck crashes has, in fact, fallen significantly--in fact, 
almost 30 percent--between 2000 and 2011, from 5,282 to nearly 
4,000. This number is still unacceptably high. And it shows 
there is still work to do. Every life is precious. One life 
lost is one too many.
    In 1995 Congress agreed. They directed this agency to 
revise the current hours-of-service rule to reduce truck-
related crashes and fatalities. A leading factor in truck 
crashes is fatigued drivers. And under the hours-of-service 
rule, drivers operating large trucks can work extremely 
demanding schedules, including working up to 80 hours per week 
and 14 hours per day. These extreme schedules increase the risk 
of fatigue-related crashes, and they do lead to long-term 
health problems for drivers.
    The hours-of-service rule that will be fully implemented on 
July 1 makes reasonable and commonsense changes to reduce the 
number of fatigue-related crashes, the risk of chronic fatigue. 
These changes include limiting the maximum allowable workweek 
from 82 hours to 70; restricting the use of the 34-hour restart 
to once in a week or once in 168 hours; and requiring a very 
reasonable 30-minute break at some point during the first 8 
hours of a driver's shift.
    Most of the industry's truck-driving workforce--in fact, 85 
percent--will see little to no change in their work schedules. 
However, those drivers working the most extreme schedules, that 
schedule that can go up to 80 hours in a 7-day period, are the 
ones that will, in fact, certainly feel an impact by the 
changes in this rule.
    FMCSA developed this rule through an unprecedented level of 
transparency, by engaging all sectors, including business, the 
safety community, advocates, drivers, business owners, 
shippers. We included recommendations from our Motor Carrier 
Safety Advisory Committee, which is a working group cross-
representative of industries, law enforcement, labor, and 
again, safety. We also included input from thousands of 
stakeholders, drawn not just from comments submitted during the 
comment period, but from five listening sessions, an 
unprecedented number of listening sessions for any of our 
agencies, held across the country.
    And finally, we incorporated years of peer-reviewed safety 
studies and research into crafting this complete rule. This 
high level of public engagement does contribute to a very 
balanced rule, a rule that provides a net gain in public safety 
and driver health, including savings of $280 million from fewer 
crashes and $470 million from improved driver health. Most 
importantly, the rule will result in important safety benefits 
for the American public, including saving and preventing an 
estimated 1,400 crashes, 560 injuries, and saving almost 19 
lives.
    Our work did not end when this rule was published 15 months 
ago; we are working with industry and law enforcement to 
implement these changes. On FMCSA's Web site, you can find 
resources such as training materials, a guide to the new hours-
of-service rule, very clear and robust examples of hours-of-
service logbooks under the new rule. And, because of our 
efforts, the earlier changes that took effect in the rule--by 
the way, changes did take effect within a month of this rule 
being finalized almost 15 months ago--those changes went very 
smoothly, and we are confident that the changes we are talking 
about today will also go very smoothly.
    Overall, this is a very important tool to advance our 
fundamental safety mission and our solemn responsibility to 
protect the public and save lives. After all, our citizens 
deserve no less.
    Mr. Chairman, members of the committee, I will be pleased 
to answer questions as the hearing progresses. Thank you.
    Mr. Petri. Thank you.
    Mr. Williams?
    Mr. Williams. Chairman Petri, Ranking Member DeFazio, 
subcommittee members, thank you for this opportunity. As a 
safety leader, I am here today to express ATA's concern about 
the changes to the hours-of-service rules, and describe how 
these rules will impact my company, safety, and the economy.
    Since 2003, when the framework for the current rules was 
published, truck-involved fatalities have dropped by 25 
percent. And also, a more recent analysis found a 31-percent 
drop in preventable collisions before 2004 and 2009, which begs 
the question why was the change to the hours-of-service rule 
truly necessary.
    Well, one thing is clear. FMCSA's motivation to change 
these rules was not based on evidence of a real problem. FMCSA 
did not undertake its own effectiveness analysis of the 2003 
changes to the rules, even though they represented the first 
substantial changes in over 60 years. FMCSA's purpose and need 
for regulatory action did not cite any research or data 
analysis showing a problem. And I can confidently tell you that 
the industry will lose operating flexibility and productivity, 
which will raise cost. And the rules will increase driver 
stress and frustration without the corresponding net benefits.
    Initial data gathered by ATA reflects the likely average 
productivity loss will range between 2 and 3 percent. This 
estimate is consistent with a recent Wells Fargo security 
analysis finding a likely productivity loss of 1.5 and 4 
percent. This translates into $500 million to $1.4 billion 
annually lost in productivity. My own company's analysis of 
recent electronic logging data found that 30 percent of our 
drivers would be in violation of the next rest break 
requirement because their breaks were not 30 minutes 
consecutively long. Thirty-six--excuse me--forty-six percent of 
our drivers did not meet the two consecutive 1:00-to-5:00 a.m. 
rest periods. These findings will cause Maverick to make 
operational changes that will affect my drivers and my 
business.
    And these changes are not warranted based on Maverick's 
safety performance, nor that of the industry. It is also 
important to note that Maverick's drivers currently use the 
restart not because they have exhausted their maximum weekly 
hours, but to ensure that they have met a full--that they have 
a full set of weekly hours available to them the next week--for 
future work schedules that can be unpredictable in the 
irregular route trucking.
    This type of use is common and was completely discounted by 
FMCSA. The agency erroneously claimed that only night-time 
drivers who work extreme hours would be affected, when in fact 
most drivers who use the restart do so in order to have the 
flexibility to manage future schedules.
    Maverick has trained its drivers and operation personnel 
and has spent conservatively more than $57,000 doing so. But 
our costs are going to be less than others, relatively, because 
of the technology that we employ. FMCSA estimated that 
training, reprogramming, and transition costs would total at 
least $320 million. Because FMCSA declined your request for a 
short delay, the industry will spend this considerable amount 
of money, though the rule may be altered in court.
    It is difficult, bordering on impossible, to accept FMCSA's 
suggestion that offsetting benefits will result. Yesterday, 
ATRI published a new analysis entitled, ``Assessing the Impacts 
of the 34-Hour Restart Provisions.'' This is the only analysis 
of its kind. ATRI used representative industry data and a far 
greater data set used by FMCSA to test the validity of the 
agency's cost benefit findings. ATRI replicated FMCSA restart 
analysis using the agency's own methodology. And its findings 
contradict those of FMCSA. FMCSA's claim that 15 percent of 
drivers work more than 70 hours a week is grossly overstated, 
likely because their data was gathered from compliance reviews 
and safety audits. But carriers are typically chosen for 
compliance reviews based upon poor safety performance 
histories.
    ATRI also discovered FMCSA's analysis did not capture many 
other costs. By following FMCSA's methodology using 
representative data, including a small amount of weekly time 
lost--15 minutes week, for example, from impacts ignored by 
FMCSA--ATRI found a strikingly different outcome. Instead of an 
annual net benefit of $133 million, in fact ATRI found a net 
cost of $198 million--$189 million, for a difference of $322 
million. ATRI's findings call into question the credibility of 
FMCSA's analysis. Congress could help, but time is growing 
short.
    Congress could direct FMCSA to postpone the effective date 
of the new rules until the MAP-21-directed restart field study 
is completed, and the results are reported to Congress. 
Maverick is actually participating in that study, as one of 
three carriers. And Congress should require FMCSA to postpone 
any rule changes until it implements the mandate for electronic 
logging devices. There are good reasons to have this mandate in 
place first, and I would like to elaborate on those in Q&A, if 
possible.
    Finally, I want to thank the chairman and ranking member of 
both the subcommittee and full committee for asking the 
Secretary to consider staying the new rule until 90 days after 
the court rules in the pending litigation. Though denied, your 
request meant a great deal to those of us in the industry.
    Thank you, and I would be happy to answer any questions at 
the appropriate time.
    Mr. Petri. Thank you.
    Major Savage?
    Mr. Savage. Good morning. Mr. Chairman, Ranking Member, 
members of the subcommittee, thank you for holding this 
important hearing, and for inviting the Commercial Vehicle 
Safety Alliance to testify. My name is Mark Savage, and I am a 
major with the Colorado State Patrol, and the president of the 
Commercial Vehicle Safety Alliance. The Alliance represents 
State, provincial, and Federal commercial vehicle safety 
officials responsible for the enforcement of commercial motor 
vehicle safety laws in the United States, Canada, and Mexico. 
We work to improve commercial vehicle safety and security on 
the highways by bringing safety and enforcement agencies 
together with industry representatives to solve problems and 
save lives.
    In Colorado, I am responsible for the commercial vehicle 
safety and enforcement program for my State. The troopers and 
officers who work for me will be enforcing these new 
regulations, starting on July 1st.
    Regardless of our opinion on any given regulation, CVSA 
members will enforce the rules set forth by Congress and the 
Federal Motor Carrier Safety Administration. We appreciate 
FMCSA's effort on the development of this rule to balance 
safety and commerce.
    The hours-of-service regulations are a critical component 
of commercial vehicle safety. There are four key principles 
that should guide the crafting of any regulation and its impact 
on safety: uniformity, clarity, enforceability, and science-
based and data-driven. While CVSA is not equipped to comment on 
the science behind the rules, we are hopeful that as we gain 
experience with these rules we will see an increase in safety 
and compliance.
    We view the new rules as fairly straightforward. However, 
we do believe the 34-hour restart provision, the 30-minute rest 
break requirement, and the new definition of ``on-duty time'' 
provide greater opportunity for concealment and 
misrepresentation of hours of service by drivers and carriers 
who are so inclined. These changes have the effect of 
shortening the driver's workday and workweek, which may create 
more incentive for some to falsify.
    Furthermore, the new rules will require more time and 
effort from enforcement to identify inconsistencies and 
concealed hours. The new rules will be more difficult to 
enforce roadside, because the rules expand, rather than reduce, 
opportunities for concealing hours. In my written testimony I 
have provided several examples to demonstrate why enforcement 
will have challenges with the new rules.
    The implementation of electronic logging devices will help 
to alleviate some of the concerns regarding the enforceability 
of the new rules. While it is true that a persistent driver 
might find a way to trick or beat the device, the provisions in 
MAP-21 call for more stringent certification and tamper-
resistant requirements, which will make cheating the devices 
more difficult.
    CVSA continues to support the requirement for electronic 
logging devices for hours-of-service compliance for all 
commercial vehicles. The devices will help improve the 
enforceability of the rules. However, electronic logging 
devices will not address all the enforcement gaps. Drivers 
should also be required to maintain supporting documents in the 
vehicle, so the documents can be reviewed by roadside 
enforcement and compared with the information being recorded in 
the record of duty status or the electronic logging device.
    With no current regulation regarding maintaining supporting 
documents in the vehicle, the ability for inspectors to check 
the validity of records of duty status roadside is compromised. 
It is true that some of these violations can be detected during 
the compliance review. However, the roadside inspection program 
is designed to be proactive to help identify unsafe vehicles 
and drivers and get them off the road before there is a crash. 
If an inspector cannot detect an hours-of-service violation 
roadside, a driver who has exceeded his or her hours could be 
allowed to continue driving.
    Further complicating the matter is the priority for 
conducting compliance reviews is set, in large part, by results 
from previous roadside inspections. If violations are not 
discovered roadside, then that motor carrier might not be 
flagged for a review.
    In summary, while CVSA will enforce the rules to the best 
of our ability, we believe the pending hours-of-service changes 
will continue to make enforcement more difficult, especially 
for those drivers and carriers who choose not to comply. While 
the hours-of-service regulations are designed to help the 
driver to obtain quality rest, each of the three new rules can 
be disguised or falsified. The rules have shortened the work 
period for some drivers, thus increasing the temptation to 
falsify the records of duty status.
    While we will not know for some time what impacts this 
ultimately will have on safety, we do know that without 
additional tools, such as electronic logging devices and 
supporting document requirements, roadside enforcement's job 
will continue to be challenging. And those who seek to break 
the rules will have more opportunities to do so.
    Each year there are approximately 3.5 million roadside 
inspections conducted in the United States. The roadside 
inspection programs identifies high-risk operators and removes 
them from the road before a crash occurs. If we do not have 
regulations designed properly or provide roadside enforcement 
with the appropriate tools to be effective at their work, the 
anticipated safety impacts will not be realized to their full 
potential.
    Last, but not least, research by FMCSA has determined that 
in 2009 there were 573 lives saved from roadside enforcement 
activities conducted through the Motor Carrier Safety 
Assistance Program, which equates to about $3.4 billion in 
safety benefits. In 2009, these grants to the States totaled 
$162 million, equating to a 21 to 1 benefit-to-cost ratio. 
Clearly, the roadside enforcement program provides a remarkable 
return on our investment.
    Thank you, Mr. Chairman, for the opportunity to be here 
today, and I will be happy to answer questions at the 
appropriate time.
    Mr. Petri. Thank you for your testimony.
    Mr. Stocklin?
    Mr. Stocklin. Good morning. My name is Ed Stocklin. I am 
from Wauna, Washington. I have been a professional truck driver 
for 35 years. I have driven more than 2 million miles and have 
hauled almost every imaginable kind of freight. Today my wife, 
Michelle, and I own and operate Stocklin Trucking, where I haul 
overdimensional loads. I am also a member of Owner-Operator 
Independent Drivers Association, OOIDA, which represents the 
small business truckers that are the majority of the U.S. 
trucking industry, with more than 90 percent of all carriers 
owning 20 or less trucks. Half of the trucking companies one-
truck operations, like mine.
    Thank you for the opportunity to provide truckers' 
perspective on hours-of-service rules, and how upcoming changes 
will impact our ability to drive safely, efficiently, and 
profitably. The changes that start on July 1 continue to trend 
the reducing flexibility afforded to truckers. This makes it 
harder for us to meet many demands of customers, regulators, 
and on-the-road environment.
    To fully understand our perspective, it is important to 
recognize that the majority of truckers are compensated on a 
per-mile basis. Simply put, if wheels aren't turning, you 
aren't earning. Further, we can begin our 14-hour on-duty 
period--that clock keeps running unless we take 8 hours of off 
and then in the sleeper berth. While it may be easy for you to 
wait out traffic, bad weather, or an accident because of an 
unstoppable 14-hour clock, the trucker does not have that 
luxury.
    Our situation is made even more complex by our operational 
changes. For example, if planning a morning departure doesn't 
happen until the evening because the warehouse waited all day 
to load our truck. Our customer only takes night-time 
deliveries. All of these challenges impact our ability to 
operate safely, efficiently, and profitably.
    Most--excuse me. Most of our--flexibility does not mean--
allows--does not mean allows truckers to drive when tired. It 
means to give us the ability to rest when we need, and to drive 
when we are rested. Nothing should come in the way of me 
stopping to take a rest break. Yet truckers are commonly placed 
between inflexibility and customers, regulatory demands, and 
demands that will only become more inflexible starting July 1.
    I generally haul from west coast to east coast and back. My 
oversized loads often prevent me from driving outside of 
daylight hours. Further, I also play an active role in loading 
and unloading my truck. This often exhausts my time available 
for me, under the seven-day duty cycle, before I am able to 
complete my cross-country trip. Under the current rules, I am 
able to restart that cycle whenever I need, by taking 34-hour 
break. This ensures I am well rested, with enough time for my 
trip back cross-country. However, under the changes that start 
July 1, it would limited--I will be limited to taking one 34-
hour restart every 7 days. This means I will no longer be able 
to restart when I need to, and a restart may become an extended 
off-duty layover.
    Additionally, the 1:00 to 5:00 a.m. period are based upon 
my home time zone. When I am taking an east coast restart, I 
will need to be off between 4:00 and 8:00 a.m., reducing my 
already limited daylight driving time. Needless to say, this 
completely changes everything, even truckers.
    Even--as these additional restrictions further reduce a 
trucker's flexibility, the demands we face have only increased. 
Well, not only all demands are under DOT controls, all changes 
that start next month will make it more difficult for truckers 
to balance them and to operate safe and efficient and 
profitable business. While Administrator Ferro deserves credit 
for efforts to examine the demands faced by truckers in more 
detail, they are not reflected in changes going into effect 
next month.
    OOIDA supports rules that are flexible, allowing and 
encouraging truckers to rest when tired, and to work when 
rested. This will provide an important tool for balance--to 
balance the day-to-day demands, and would be--best improve 
highway safety.
    Thank you for your opportunity to testify in holding this 
hearing today. Questions, if you like to, any time. Thank you.
    Mr. Petri. Thank you, Mr. Stocklin.
    Ms. Joan Claybrook.
    Ms. Claybrook. Thank you, Mr. Chairman, Mr. Chairman Petri, 
Ranking Member DeFazio, and Chairman Shuster, and members of 
the committee. I appreciate this opportunity to testify today 
on the commercial driver hours-of-service regulation last 
issued in December 2011, and currently in litigation. I am Joan 
Claybrook, Former Administrator of the National Highway Traffic 
Safety Administration, and the consumer cochair of Advocates 
for Highway and Auto Safety, a unique insurance company and 
consumer coalition dedicated to improving traffic safety.
    Truck crashes are serious and they are deadly. On average, 
over the past decade, from 2002 to 2011, large truck crashes 
each year claimed 4,000 lives and injured nearly 100,000 
people. Despite declines during the recession, fatalities and 
injuries have increased every year since 2009. This is the 
equivalent of a major airline crash every other week all year 
long. Large truck driving is one of the most dangerous U.S. 
occupations, killing 547 drivers in 2011. The annual cost to 
society of large truck crashes is over $83 billion a year.
    But the public pays the biggest cost in personal loss and 
tragedy. In the audience today representing thousands of 
families whose family members have been killed and injured by 
tired truckers are Jane Mathis of St. Augustine, Florida, who 
lost her son and daughter-in-law returning from their 
honeymoon, when a driver virtually ran over their car in slow 
traffic; Daphne and Steve Izer of Lisbon, Maine, who lost their 
son and three friends when their vehicle, while stopped in a 
break-down lane, was struck by a driver who had fallen asleep; 
and Larry Liberatore, whose son was killed when a truck driver 
fell asleep behind the wheel, crossed three lanes of traffic, 
and plowed over the car his son was in on the shoulder of the 
highway.
    The problem of tired truckers is not new. Almost 20 years 
ago, the 1995 National Truck and Bus Safety Summit organized by 
DOT with experts and stakeholders, identified driver fatigue as 
the number one safety issue in the trucking industry. In 
response, Congress immediately enacted Section 408 of the 
Interstate Commerce Termination Act, requiring DOT to adopt 
necessary ``countermeasures for reducing fatigue-related 
instances and increasing driver alertness.''
    Unlike strict rules and enforcement with fatigue in 
commercial air transportation, the Government has done little 
to improve trucker fatigue. In 1937, truck drivers were exempt 
from the Fair Labor Standards Act, meaning that companies 
cannot be required to pay overtime. As a result, drivers are 
paid by the mile, not the hour, like other employees in 
America, encouraging drivers to drive as far and as fast as 
they can.
    But despite almost continuous rulemaking and litigation 
since the late 1990s after passage of this legislative mandate, 
the rules governing truck drivers got worse, not better. In 
2003, the Department of Transportation increased the 10-hour 
limit on continuous driving to 11 hours, and that is 3 hours 
more than Americans are required to work in far less arduous 
jobs. And it allowed a recalculation of the limit on weekly 
hours of driving by instituting a 34-hour restart, essentially 
short-cutting the end of the workweek rest and recovery period 
for drivers who drove up to their maximum weekly hours before 
the end of the week.
    The restart allows drivers to take only 34 hours--or you 
might say a shortened weekend--and then recalculate driving 
hours with a fresh start, cramming 17 hours more driving into 
the week. This maneuver allows drivers to significantly expand 
their driving hours beyond the prior hard limit of 60 hours for 
a weekly driving cap, or 70 hours for a driver in an 8-day 
schedule.
    Truck crash victims, citizen groups, the Teamsters, and 
others sued DOT and won two rulings from the Federal Court of 
Appeals overruling DOT in 2004 and in 2007. The subsequent 2011 
final hours-of-service rule, which is about to take effect on 
July 1, 2003, failed to cut back the continuous hours of 
driving to 10 hours, which had been in place, by the way, for 
70 years, and only minimally considered the restart issues.
    Even the Federal Motor Carrier Safety Administration 
estimates that about 13 percent of fatal truck crashes involve 
driver fatigue, which we think is an underestimate. The agency 
made only modest adjustments to the hours-of-service rule, 
which you have heard described.
    I believe that we can do better, and I think we know what 
it takes. These limited safety benefits of the current rule, 
compared to the size of the problem, are why other improvements 
are essential to protect drivers' health and protect the 
driving public. Studies have found that since the current HOS 
rule was issued, large numbers of drivers admit to being deeply 
fatigued behind the wheel. Nearly 48 percent of drivers 
admitted that they had fallen asleep while they were driving. 
Other historical research shows that the crash risk for drivers 
increases exponentially after 8 hours of driving, and is at 
higher levels with more driving. And you know that if a driver 
nods off for even a second in those 11 hours of driving, it 
could result in a deadly crash.
    Cumulative sleep deprivation can only be overcome through 
extended periods of off-duty time for rest and recovery. And 
for all these reasons, we felt compelled to sue once again. We 
have several appendices in our testimony which I hope are 
helpful to the committee, including excerpts from court 
decisions and a chronology--history of the rulemaking.
    Thank you so much, Mr. Chairman. I appreciate it.
    Mr. Petri. Thank you.
    And last, but certainly not least, Mr. Hinkle.
    Mr. Hinkle. Chairman Petri, Ranking Member DeFazio, and 
members of the committee, thank you for the opportunity to 
share the ready mixed concrete industry's concerns with the 
upcoming changes to the Federal hours-of-service regulations. 
My name is Jeff Hinkle, I am the transportation manager for 
Chandler Concrete Company, a family-owned-and-operated ready 
mixed concrete company based in Burlington, North Carolina.
    Chandler Concrete Company was founded in 1946, and 
currently employs 380 people. We operate 40 ready mixed 
concrete plants, 256 commercial motor vehicles, deliver 655,000 
yards of concrete annually, and have operations in North 
Carolina, Virginia, and Tennessee. Today I am also testifying 
on behalf of the National Ready Mixed Concrete Association, of 
which I am the current vice chairman of the operations, 
environment, and safety committee.
    The current hours-of-service regulations our Nation's 
commercial motor vehicles are operating under are not perfect. 
However, they are manageable and much more flexible for 
operations of the ready mixed concrete industry than the new 
and pending hours-of-service rule changes. As with most small 
businesses, operating a ready mixed concrete company means 
there are finite amounts of resources for everything, whether 
it is ordering inventory, hiring employees, dealing with an 
array of mandates, or, in the case of hours of service, making 
sure our drivers are compliant with an already complicated and 
burdensome safety measure, while trying to deliver a perishable 
product as soon as possible. Adding another layer of regulation 
to this only hinders the ability to run a successful business.
    Here is why the hours-of-service changes do not work for 
Chandler Concrete Company and the ready mixed concrete 
industry. The mandatory break of 30 minutes every 8 consecutive 
hours is, by far, the most overburdensome and difficult for the 
ready mixed concrete industry. Ready mixed concrete drivers 
typically spend far less than 50 percent of their own duty time 
actually driving. The other 50 to 75 percent is spent at the 
plant, waiting to be dispatched, at the job site, waiting for 
the contractor to receive the concrete, unloading concrete, and 
performing other administrative duties.
    Companies need to have the flexibility to give breaks as 
the schedule dictates throughout the day. For example, a 
concrete delivery often takes more than 2\1/2\ hours to 
complete. Concrete is a perishable product, needed on a just-
in-time basis. Once a delivery is started, it must be 
completed, or the concrete may harden in the truck, causing 
thousands of dollars worth of damage, and potentially violating 
a delivery contract.
    Every day is different in the construction field. Thus, 
companies need the flexibility to deliver concrete when a 
customer needs it. Drivers also have a flexible start time, 
where one day they start at 7:00 a.m. and the next at 12:00 
p.m.
    Ready mixed concrete deliveries do not happen on a regular 
9:00-to-5:00 schedule, nor do concrete customers always plan 
deliveries. Often, customers order concrete on an as-soon-as-
possible basis. As well, by requiring this 30-minute break, 
which more often than not will be required to be taken as off-
duty, nonpaid time, this break ultimately keeps drivers away 
from their families longer, and with no additional pay. Due to 
all of these factors, compliance with a 30-minute break 
unfairly affects the effectiveness of delivering ready mixed 
concrete, and the practices of the ready mixed concrete 
business without improving safety.
    The ready mixed concrete industry has estimated 
industrywide compliance with the hours-of-service rule change 
to cost roughly $268 million in the first year alone. This 
cost, in part, includes driver training, new technology, 
administrative expenses, customer complaints, additional fuel, 
hiring of more drivers, and buying more equipment.
    In conclusion, the easiest and clearest solution to the 
problems outlined above is to reinstate the pre-December 2011 
hours-of-service regulations. We should be smart enough to 
recognize unique industries and how these types of regulations 
unnecessarily adversely affect them.
    Again, thank you for the opportunity to comment on how the 
hours-of-service rules changes will affect Chandler Concrete 
Company and the ready mixed concrete industry. I am happy to 
answer any questions the committee may have.
    Mr. Petri. Thank you. And thank you all for your testimony. 
The testimony of the last witness on the difficulty for the 
concrete industry--and I suspect asphalt as well--is 
reminiscent of previous hearings, where we had people 
testifying on previous hours-of-service rules who were working 
for utilities, for example, driving to and doing work. If you 
have a storm and wires are down, are they supposed to stop and 
let people stay in the dark, or should there be exceptions, 
some flexibility?
    For the agricultural industry, during harvest times and 
other times a year, it is very important that they not just 
stop and let crops rot or fail or whatever. The same thing, 
evidently, is true in the petroleum industry, where some 
exceptions have been granted. And I am a little surprised that 
in the rulemaking process, I don't know if you failed to 
comment on it, or if they just ignored the concerns that you--
--
    Mr. Hinkle. The National Ready Mixed Concrete Association 
did submit comments on the ruling.
    Mr. Petri. I would like to ask Mr. Savage if--you alluded 
to the possible increase in enforcement difficulties with the 
new rules and said your written testimony provides some 
concrete examples. If you could expand on that for a minute or 
two, it would be much appreciated.
    Mr. Savage. Thank you, Mr. Chair. Absolutely. My written 
testimony provides several examples, I believe three. I will 
briefly discuss one, and it is specifically related to the fact 
that we don't have the ability to check supporting documents.
    For example, the new rules allow or require a driver to 
take 30 minutes off before they reach 8 hours of driving. And 
currently, there is no requirement to maintain supporting 
documents. So a driver, conceivably, if they were inclined to 
falsify their log, could go into a truck stop and fuel their 
truck. During that time that they were fueling their truck and 
checking their load, load securement and checking the truck, 
that actually, at that time, is supposed to be counted as on 
duty, not driving. The driver could conceivably log that time 
as being their off-duty time. And without us having the receipt 
for the fuel, we may not be able to determine whether or not 
that driver was actually resting during that 30-minute break.
    Mr. Petri. Thank you. Ms. Ferro, if you would care to 
respond to any of the other panel members' testimony.
    Ms. Ferro. Thank you, Mr. Chairman. Thank you for that 
opportunity. Two quick things I want to follow up on.
    Mr. Chairman, you rightly asked about special exceptions 
for certain industry categories, understanding that oil fields 
have certain special exceptions from hours of service, 
agriculture has certain special exceptions from hours of 
service, as does the concrete industry. The concrete industry--
and that was not changed under this rule that takes effect July 
1--has the opportunity for a 24-hour restart at any point in 
time when they are operating on a job site. And of, course, 
utilities also have a special exception for responding to 
emergencies.
    So I want to be sure that that is clear. It is a 24-hour 
within operations within a 50-mile radius, and it is something 
that Congress put in place some time ago.
    Mr. Petri. I think what they have indicated to me is that 
the half-hour break is a real problem because the concrete 
could set, or it could interfere with the process. They are 
dealing with a natural substance that is not going to rest for 
half-an-hour, it is going to keep on congealing, or whatever. 
And the same thing with hot asphalt and so on. Could you 
comment on that, or how that can be managed more effectively?
    Ms. Ferro. Absolutely, Mr. Chairman. I appreciate this 
opportunity to comment, because the 30-minute break is a very 
reasonable expectation. It is a 30-minute break within a 14-
hour workday. In fact, if you work an 8-hour day in this 
industry you wouldn't even be required to take the 30-minute 
break, because it only starts if you are going to drive after 
that eighth hour.
    With regard to areas of confusion--and so, again, this is a 
great opportunity to clarify--the 30-minute break can be taken 
by the driver at any point in time during that 14 hours, 
providing it happens before any driving occurs after the eighth 
hour of work. So, in many cases, a driver might take--to 
maximize the use of that 30-minute break and just only have to 
use it once within a 14-hour day, they would optimally take it 
some time between the fourth and eighth hour of working.
    In the case of the concrete industry, they might choose 
when that driver is on a loop back to the plant to pick up more 
product to say, ``All right, go off duty, you know, hop in your 
cab''--and this was a different change we made in the hours--
``and take a 30-minute break, you are off duty, you are not 
responsible for the load, we are not going to reload you until 
you have had that 30-minute break.''
    So there are certainly--this idea of having flexibility, 
that 30-minute break is accessible throughout that day. But 
again, it is optimized if the driver takes it some time between 
the fourth and eighth hour. And----
    Mr. Petri. Mr. Hinkle, would you care to respond?
    Mr. Hinkle. Yes, sir. To optimize our workdays in the 
summertime, you know, a 14-hour day is a normal day. Drivers 
get 10-, 15-, 20-minute breaks throughout the day probably 
every couple of hours.
    So, you know, our biggest reason is to sit them down and 
take them off the clock for 30 minutes is going to be tough for 
us to deal with. When they go through the day, they don't deal 
with the fatigue than an over-the-road driver--you know, maybe 
driving 6, 8, 9 hours at a time. You know, they are constantly 
getting short breaks throughout the day. Maybe not 30 minutes, 
but you know, 15, 20 minutes, and such. So they don't reach the 
fatigue level that a driver driving a long distance would 
reach.
    Mr. Petri. Thank you. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Since this is a 
subset of a very complicated issue, I am almost grasping it.
    So, in the aggregate case, it seems to me there are two 
things that might apply and might be within the capabilities of 
the Administration. There is the exemption for the time a 
driver spends resting in a parked commercial motor vehicle--may 
be considered off-duty time. If--a lot of these guys are--and/
or women--are sitting in line, just with the truck rotating so 
the concrete won't set up. And every once in a while they might 
have to move. I mean I wonder if that would solve the problem, 
if there was an exemption for you are not actively doing 
anything with the truck, but it is just rotating because you 
don't want your concrete to set up.
    Mr. Hinkle. Well, that is why we have got to clarify the 
definition of on-duty and off-duty time.
    Mr. DeFazio. Right.
    Mr. Hinkle. Because----
    Mr. DeFazio. But that could help, because, I mean, they 
really are in line here, right?
    Mr. Hinkle. Yes, sir. That could help. If they are waiting 
you know, 30 minutes. But then again, we don't know how long we 
are going to be waiting----
    Mr. DeFazio. Right. But that could take care of some of it.
    Mr. Hinkle. Right.
    Mr. DeFazio. But the other issue would be--and perhaps Ms. 
Ferro can address this--I was kind of wondering about the 8 
hours and 14 hours, and I was thinking, wow, these guys--I 
mean, you know, how are they taking care of bodily functions? 
And as he is pointing out, they are getting short breaks during 
those 8 hours or 14 hours.
    Mr. Hinkle. Right.
    Mr. DeFazio. What if those were--if they could aggregate 
those? If these guys are, you know, they drive there, they get 
there with a truck, they know it is going to sit for a minute, 
they get a 15-minute break back in the truck. I mean what if 
you could aggregate those, as opposing to, say, in a lump sum? 
What does the research say about--because they all say--you 
know, the stuff I read says really short naps can refresh a 
person. Like just nod off, you know, and come back--except if 
you are at the wheel, obviously.
    So, what about allowing aggregation of these shorter breaks 
that people take, particularly in this industry, which is 
short-haul driving?
    Ms. Ferro. So back to Chairman Shuster's expectation that 
any kind of a rule for any agency is research-based, 
scientifically identified, defined, developed, when it comes to 
breaks and the opportunity and the--all findings, whether it is 
in a standard manufacturing plant or in a heavy-duty vehicle 
operation, a 30-minute break where the individual is completely 
off duty from operations, does in fact contribute to a much 
lower crash risk in that subsequent hour. That is what the 
research says. It is very clear. A semi-off-duty break, a 
little bit of--less of an improvement in reducing crash risk.
    The concept here is there is a clear safety benefit. I am 
sure Mr. Hinkle also wants safety on the worksite, given the 
kind of heavy equipment his operators are running. So that 
optimum break is one 30-minute break. It improves that driver's 
clarity, that operator's ability to respond quickly, if there 
is an issue.
    One opportunity to consolidate a break is to take two of 
those 15 minutes he referenced and allow the driver to grab it 
when they are going back to the plant, when they are back to 
the plant, before they reload. Another is to take the off-duty 
issue described and ask another driver, ``Hey, watch my truck 
while it is turning. I am going to be here for another 2 hours. 
Can you take 15 minutes while I take 15 and we will split that 
time and watch each other's rigs?'' I suspect that also goes on 
at worksites.
    But at the core of this is the concept of improving the 
ability of that operator to be as safe and alert as possible in 
a very challenging work environment, understanding that 
everybody still needs the flexibility to get the job done. That 
concrete is very important to get poured.
    Mr. DeFazio. OK. Well, I am--if the research is that 
definitive, I am just not sure. I mean you are saying there is 
some improvement with aggregated, shorter breaks, you are just 
saying you don't capture the full benefits. I mean did the 
research drill down to the level of short-haul driving versus 
long-haul driving, in terms of those sorts of breaks?
    Ms. Ferro. I will have to go back and check, and I will 
respond to----
    Mr. DeFazio. Because, I mean, short-haul driving, to me, is 
very different----
    Ms. Ferro. Well----
    Mr. DeFazio [continuing]. Attention span.
    Ms. Ferro. If I could respond real quickly, the research 
generally is not unique to operating a heavy-duty vehicle. It 
is any sort of heavy equipment operation. The research with 
regard to workplace safety reinforces, under any kind of OSHA 
standard or OSHA research, NIOSH research, that, in fact, an 
operator that takes a 30-minute break off duty has the optimum 
opportunity to reduce any sort of accident risk within that 
first hour when they come back on duty.
    We do it all the time. The difference is that we are not 
operating heavy equipment. And the risks of us bumping into 
somebody aren't as severe as somebody who is using heavy 
equipment----
    Mr. DeFazio. If I could--just one other quick thing, Mr. 
Chairman.
    Ms. Ferro. Yes.
    Mr. DeFazio. You know, again, I have been trying to puzzle 
through the restart. And Helena, who I didn't talk to when I 
said no one could get an award for explaining this fully, has 
done a very spiffy little chart here. And what she--her 
conclusion here is that, with the 34-hour restart, you could 
still get to over 80 hours in a week.
    And then that--what would happen would be your restart 
would move a couple of days every week, and it would back up 
through the week. But you still could be consistently driving 
more than 80 hours in a week. So I am not even sure that this 
extraordinarily difficult to explain concept is accomplishing 
your stated goal, which is to prevent anybody or everybody from 
driving more than 80 hours in a week in consecutive weeks.
    Ms. Ferro. Well, if I might clarify now, Helena is right. 
She gets to this stuff very quickly and very accurately. You 
can, in fact, under the new rule, run 80 hours, take the 
restart. Your next run will be limited to about 57 to 60 hours, 
and then you will have to take a longer break before you can 
run back at 80.
    Again, the whole concept behind this rule is pretty 
straightforward. The vast majority of the industry operates 
very well and within any kind of reasonable expectation of 
driver fatigue and driver wellness within this current 
construct. It is that opportunity to stretch the margins under 
the current rule by using that restart to move the week in that 
creates the risk that a driver would run 80 hours, 34-hour 
break, 80 hours, 34-hour break, 80 hours, week after week after 
week. And that creates the condition of cumulative fatigue, 
chronic fatigue, which not only makes that driver a real risk 
behind the wheel, it also impacts that driver's health in the 
long term.
    What this rule does, it limits the use to one time, let's 
say, within a 2-week period. You can use it--80 hours you are 
on, you take the 34-hour restart, now your next week you are 
stuck at 57 hours to 60 hours. You have a longer break, and 
then you might resume again with a restart at the end of that 
longer break.
    So, it reduces the risk that that 80 hours is run week 
after week after week. We worked very hard to ensure that there 
was some flexibility still in this rule, recognizing the 
demands of the trucking industry.
    Mr. Petri. Thank you. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. Ms. Ferro, in MAP-21 
we put in the law that FMCSA shall conduct real-world field 
studies. And I know that Washington State University, who 
conducted the lab experiment, recommended that the next 
positive--or strongly recommended, I should say, that the next 
appropriate steps should be to conduct a field study. And I 
know the industry has recommended you put these off until we do 
a real-world study. So why have you decided not to postpone and 
perform this real-world study that it seems everybody think is 
a good idea?
    Ms. Ferro. We are doing a real-world study. We launched it 
as soon as Congress incorporated this into MAP-21 and MAP-21 
was enacted. We began the work, both to scope out and define 
and award a contract to carry out the field study. In fact, we 
actually used--had the first driver start under the field study 
conditions in January this year.
    Mr. Shuster. But it is not going to be concluded by July 
1st, and you are going to move forward with these regulations--
--
    Ms. Ferro. That is right. Right.
    Mr. Shuster [continuing]. Without any real-world data.
    Ms. Ferro. Look. The----
    Mr. Shuster. What will you do if it comes back and it says 
something different? You will change the rules? I think it 
would be better off for all of us if we temporarily postponed 
and let the real-world study go forward.
    Ms. Ferro. I appreciate that perspective. Flash back 10 
years ago. The 34-hour restart that the industry prizes so much 
today was developed through a lab study with fewer subjects and 
not field study. But it was identified as an improvement in 
efficiency, operations, and, in fact, rest for drivers. So the 
model is not unique.
    Mr. Shuster. Mr. Williams, do you share that view?
    Mr. Williams. I would prefer to have the facts----
    Mr. Shuster. Absolutely.
    Mr. Williams [continuing]. In front of us before we make 
the changes. Even though we have already spent the money, you 
know, the impact of it is going to be significant.
    Mr. Shuster. Right. And it is true, let's have the real-
world facts.
    The other question I have is while we are looking at this--
and certainly safety is, as I said, is paramount--but my 
numbers that I have say about 75 percent of the accidents that 
occur out there with trucks are not caused by the truck driver, 
it is by the passenger car that cuts them off. And these things 
are are not going to look at that at all, and in fact, the CSA 
scores that impact the industry greatly, they do not 
differentiate between an accident where the driver was not at 
fault, somebody cut him off and that is what caused the 
accident.
    It seems to me that fundamental in our justice system, that 
ought to be taken into consideration.
    I am a truck driver. I am well rested. I am unlucky because 
I get a passenger car every so often cuts me off.
    How is that fair in the CSA scores to not differentiate 
between who is at fault?
    Ms. Ferro. We refer to this particular issue, Mr. Chairman, 
as ``crash weighting.'' I think the industry for a long time 
has called it ``crash preventability.'' We recognized that in 
the analysis that we used through the CSA program to prioritize 
the carriers that are putting the highest risk to the public, 
we used all crashes.
    The neutralizing effect is every carrier is treated the 
same, it is all their crashes. No one gets a break.
    Mr. Shuster. That puts luck involved in it. Mr. Williams' 
firm may have had some unlucky drivers, people driving 
passenger cars pulling out in front of them and causing 
accidents. That does not seem to me to be a fair way to go 
about this. It is not a scientific way.
    If a truck driver is safe, he is safe. If a truck driver 
has five accidents and zero are his fault, they are not his 
fault. I do not think it is a fair way for us to proceed.
    Ms. Ferro. The important last sentence I talked to is we 
are studying the issue. We expect a report to be completed this 
summer to both examine how the agency can best gather 
information on preventability and nonpreventability, or really 
that driver's contribution to the crash and weight it 
accordingly, for all crashes, about 100,000 crashes, or just on 
the 4,000 annual fatal crashes. That analysis will be available 
for everybody----
    Mr. Shuster. If it is not my fault, it is not fair. If it 
is not my fault, I should not be held accountable. I should not 
have to jeopardize my living, I should not be jeopardizing my 
company's well being, if I am not at fault.
    That is something we have to look at very, very seriously. 
It is a problem. I hear from trucking companies all the time.
    I would like to ask Mr. Williams and Mr. Hinkle, if you 
have an accident in your business, what kind of economic impact 
is that on you? Whether it is your fault or not your fault. How 
significant is that?
    Mr. Williams. It is something we obviously have to manage. 
We spend millions of dollars trying to prevent accidents. 
Obviously, there is some recent research that has come out that 
the industry may be underinsured based on statutory limits, 
minimums we are required to carry. Suffice it to say every 
event has the potential to be--aside from bodily harm, the 
property damage alone is probably significant.
    Mr. Shuster. Mr. Hinkle?
    Mr. Hinkle. We take it very serious. We spend a lot of 
money in training. Any time we have an accident, we do a very 
thorough investigation. If somebody needs to be retrained, 
obviously there is a cost, loss of equipment or personal 
injury, anything like that.
    When you refer to a CSA crash score, I have to agree with 
you 100 percent. We have had several of those instances where 
our score has gone up, we may have had three incidents in 6 
months and zero were any fault whatsoever of our drivers. We 
get the letter in the mail saying your score is too high. What 
do you do?
    Mr. Shuster. All right. Thank you very much. I appreciate 
the input of our witnesses.
    Mr. Petri. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. I really appreciate us 
having this hearing. I think for all of us this hearing is 
providing an opportunity to figure out how safety, of course, 
is a priority and as we balance that with the truck drivers, 
the independent owner-operators, and business people across 
this country.
    May I first offer my deepest sympathy to the families that 
are here today for loss of your loved ones. Tragic stories, 
which we do not like to hear those stories. I think everybody 
here will agree that we want to get to the point where we have 
less fatigue in our drivers.
    I represent the Port of Los Angeles. I think Ranking Member 
DeFazio talked about drivers getting paid by the load, not by 
the hour. I was told by many of my drivers in the area that 
sometimes one drop off of a load was sometimes 13 hours because 
of traffic conditions, because of the ports only operating 
certain hours.
    When I was on the City Council, I pushed to move more off 
peak hours at our ports because I thought that made better 
sense for our truck drivers. By the way, they do not like to be 
on the road with the rest of us drivers either. They do not 
think we know how to drive. A lot of the accidents, I think, 
with our big rigs are caused by incompetent commuters on the 
road who do not understand what it takes to brake one of those 
trucks.
    While certainly these rules are meant to create less 
fatigue on our drivers, as we have heard, many of them are 
going to be unenforceable. We cannot mandate folks get 8 hours 
of sleep at night. We think there would be a lot of people who 
would wish that was true in their own lives.
    What I was going to ask the drivers, particularly those who 
represent drivers and the drivers, this is the Transportation 
and Infrastructure Committee. We are really looking at the 
infrastructure in this country.
    Many of us are on a freight panel. We are going to make 
recommendations for national freight policy in this country.
    What besides rest, taking time off, getting more hours away 
from driving, could we look at in terms of our infrastructure, 
in terms of more off peak opportunities at our ports across 
this country?
    What else could we do in Congress that might relieve the 
stress of drivers, might create a better infrastructure that 
causes less fatigue?
    Is there something we could look at besides just regulating 
your time away from your trucks, your time resting, your time 
sleeping, that would actually make for a better driving 
environment, which we know ultimately would lead to less stress 
and fatigue?
    Any ideas? I would like to hear from Mr. Williams, Mr. 
Stocklin, and Mr. Hinkle.
    Mr. Williams. First, I think we are all in agreement that 
we want to reduce fatalities. We want to reduce bodily injury. 
We are all on the same page. It is just a question of how we 
can get there.
    I think the context of your question is really, really 
important because we also need to understand that over the next 
20 years, the economy will double in size. However successful 
you are in our infrastructure investment, it is going to pale 
in comparison to the challenges the infrastructure system is 
going to have.
    We are already 20 years behind, so we have a lot of 
catching up to do. The reason that is important is because 
congestion really creates a awful lot of challenges not only 
for safety but for the environment as well, not to mention the 
economy.
    Infrastructure, yes. More lane miles of highways is 
certainly important. Fatigue is only one of the components of a 
good safety management system.
    On our fleets, we have about 1,500 trucks, they all have 
collision avoidance systems, lane departure alert systems, roll 
stability control, disc brakes. The list goes on and on, all 
the technology. We use electronic onboard recorders.
    You asked what could be done. We need to make sure that we 
get the mandate implemented on electronic onboard recorders, or 
the rest of this is really kind of irrelevant, not to be 
disrespectful. Regardless of the rule that we have in place, if 
it is not enforced, and the CVSA does not have the ability to 
leverage the resources they do have to ensure a higher degree 
of compliance, we do not have much hope of any progress.
    The foundation from which all improvements can be made are 
the electronic onboard recorders. They are what rationalized me 
spending tens of millions of dollars a year to continue to want 
to grow my business.
    Without that confidence that there is some reason brought 
into the equation, it is really not prudent for me to continue 
to invest in all the safety technologies that we have already 
invested in.
    I really truly believe the EOBR mandate, which we want to 
compliment you all on the leadership role you have taken on 
making sure that became a reality, but we need to make sure 
that is implemented as soon as it possibly can be. I think that 
should be paramount over everything else.
    If I may also add as a part of that, like hair follicle 
testing, we need to be allowed to use that. It improves safety. 
The drug and alcohol clearinghouse, there are so many 
commonsense things that are laying before us that we need to 
get implemented, we need your help to get all those things 
done.
    Mr. Petri. Thank you. Thank you, Ms. Hahn. Mr. Crawford?
    Mr. Crawford. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I want to thank the witnesses for being 
here and particularly my fellow Arkansan, Mr. Williams. I 
appreciate the work you do, 33 years in the business. You have 
grown Maverick Transportation and you and your staff have done 
a fantastic job, and you are an industry leader in safety.
    You alluded to this in your comments just now. I want you 
to elaborate on why you believe the EOBRs are so critical to 
the enforcement of the hours-of-service rule and collection of 
data.
    Mr. Williams. In the spirit of what we are trying to do 
here, manage with facts, as Ms. Claybrook said before the 
hearing, we are all trying to get to the bottom, what are the 
real facts of the situation.
    In fact, EOBRs--we manage literally 1,500 trucks by the 
minute. We know how long it takes them to load, how long it 
takes them to unload. We know when we are waiting, we know 
where we are waiting. We know actual transit times.
    That is one of those facts, much like my concern over the 
34-hour restart, for example. I can factually say my concern 
over us focusing on the elimination of the 34-hour restart when 
in fact the concern is to mitigate the people that drive 
bumping up against the 70 hours, and year to date, my fleet, 
which are considered pretty good runners, 37.18 hours of 
driving per week and 49.43 hours per week on driving. They are 
not getting anywhere close to 70.
    In my case, where I use the 34-hour restart for a different 
purpose, again, to get flexibility on a schedule, the average 
length of haul for our fleet, 650 miles, we are considered a 
long-haul, irregular route carrier. We are a steel hauler. We 
are a flat-bed carrier. I use that to illustrate--we have the 
facts to the hundredth of a minute.
    EOBRs give you the correct data so you can manage it from 
an operational standpoint, from a safety management standpoint, 
from a pricing standpoint, how you utilize the equipment.
    The part that makes it obviously the most important is it 
gives law enforcement the ability to quickly with technology 
aggregate data with the help--which I am a tremendous advocate 
for CSA--a combination of those tools that we in fact can focus 
the resources on those carriers and drivers who have habitual 
driver hours-of-service problems, from a fatigue management 
standpoint.
    Yes, the system can be beat. These guys have a lot of time 
on their hands. This is interesting. These guys and gals are 
trying to find ways of creating flexibility for themselves so 
they can work harder. They are not trying to go out and hurt 
people.
    We have to constrain them in many cases with these 
regulations and that is understood, but they have to be right 
sized, if you will.
    EOBRs, again, are the tool--again, I do not really believe 
there is much hope for any real progress unless we can get an 
EOBR mandate in short order. It is the foundation that will 
ensure people will do the right thing.
    So many people think that running a truck line is an 
entitlement. It is not. It is a privilege. We need to look at 
it that way.
    Mr. Crawford. Thank you, Mr. Williams. I am going to direct 
my attention now to Administrator Ferro. You have heard what 
Mr. Williams has to say about it. You know the data on it. You 
know we authorized EOBRs in MAP-21. I do not think you are 
going to hit your October 1 deadline for the rulemaking.
    Do you want to elaborate on that, kind of let us know where 
you are at with respect to the timeline for implementation?
    Ms. Ferro. Yes. Let me just reinforce, the electronic 
logging device rule, ELD, is a very important rule. Frankly, we 
cannot get it done fast enough. I felt very strongly about this 
and for a very long time.
    You may be familiar with the court history on it, and we 
need to be sure not only do we get every piece right, it has to 
be completely defensible, and we also incorporate the elements 
of MAP-21.
    The Supplemental Notice of Proposed Rulemaking, because we 
are building on an NPRM we had issued in 2011, will be on the 
street in the fall of this year. You are absolutely right, it 
will not be the final rule. It will be the Notice of Proposed 
Rulemaking.
    It will incorporate four very important pieces. One of 
which is the broad mandate across the industry that uses it as 
record of duty status to monitor hours of service to ultimately 
improve compliance.
    The second component, very important, and you heard Major 
Savage speak to it, is the supporting documents piece, ensuring 
there is clarity and efficiency in the supporting document 
retention requirements and accessibility requirements.
    If you are using technology, you should not have to keep as 
many papers, but certainly law enforcement ultimately needs to 
be able to use the tool.
    There is a component of the electronic logging rule that 
must prohibit the use of that technology to harass drivers. 
That is the third major component in that rule.
    The fourth major component, sort of underlining all of it, 
is the technical specifications, the broad open technology 
reflects kind of all the advances that have been made so that 
it is affordable, it is accurate, it is hamper proof--tamper 
proof--pardon me.
    Those are the four components. Again, I could not agree 
with you more, we need to get it out there.
    Mr. Crawford. Thank you. I yield back.
    Mr. Petri. Thank you. Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman and the ranking member 
for holding this. Thank all of you for being here. I for one am 
grateful that all of you are a part of this. I know my family 
is out on the highway, our economic well being is dependent on 
that, and trying to strike that proper balance.
    We do not often times get an issue that I do believe the 
core issue here is safety and then making sure people have the 
ability to be profitable in moving products. We have to be able 
to strike that balance.
    As I am listening, I do not think there is a lot of space 
between there. There are a couple of things. I think Mr. 
Crawford started to hit on this, and I am trying to get at, how 
do we focus on the bad actors without doing damage in a blanket 
report?
    I think, Mr. Williams, you were kind of getting at that. I 
have to tell you the one thing I find, and maybe it is just the 
nature of this business, but when I go to visit my small 
carriers, safety is the air they breath. I get that impression 
when I go in there that is the air they breath.
    When I talk to my State patrol, it is about safety, moving 
commerce, and understanding it.
    We are really similar in this. Who are the bad actors in 
this? How are these folks getting around it or how does that 
happen? Is the margin so tight that it just creates a 
situation?
    Mr. Williams, I think you hit on something really 
interesting, that it might not be bad intent a lot of times, it 
is just folks that are just really trying to work hard, and it 
is one of those jobs.
    I know this military-wise, forcing people to sleep in the 
military was really, really hard, because they are driven, they 
want to get the job done, but if they do not sleep, they 
degraded our capacity.
    Mr. Williams, I am looking to you and Mr. Stocklin first. 
What do you think? How do we weed out those bad actors without 
putting you in a bind for doing the right thing?
    Mr. Williams. Well, again, going back to the context of the 
challenges going to get much greater, I am really glad we are 
doing the things that we are. Again, I believe CSA is doing the 
right thing. It is identifying who those bad actors are.
    We are eliminating--once identified in the past, a bad 
driver, for example, could leave a bad carrier that has been 
characterized as such and show up at another carrier and taint 
his record. We are closing all these little loopholes, if you 
will.
    The Administrator has done a really good job of trying to 
accelerate that process. There is an awful lot of people in the 
shipping community--I have customers that think she and her 
Administration has been making idle threats, that their world 
is going to change, that in fact, there are no teeth in this, 
and I am waiting for--there is evidence there are actions being 
taken against bad carriers and bad operators. It goes on. It 
just has not been maybe as visible as I would like to see it.
    I am a firm believer it needs to be tough to get into this 
industry and it needs to be tough to stay in this industry, and 
those of us that are here can afford to invest in the solutions 
from driver pay, driver benefits, proper work schedules and all 
such to make the job a better job.
    It is an economic issue, yes, but again, we cannot get 
there without the help of the regulators, with leveraging the 
technology. Again, embracing CSA.
    I think the framework is there and the clock is running. I 
just wish we could get there a little quicker.
    Mr. Walz. Major Savage, if I could ask you on this, your 
folks see this, and I was pleased to hear the Chairman of the 
full committee talk about science a lot on this, you mentioned 
there are folks trying to game the system or whatever.
    I do not know how to frame this other than are there 
carriers that just have that air they breath culture of safety 
and are there others just trying to get around it? You are just 
identifying the bad actors as you stop them, no matter where 
they came from.
    What is your take on this?
    Mr. Savage. Mr. Congressman, that is an excellent question. 
I am very glad you asked it. In our business, our goal is to 
remove the unsafe drivers and carriers from the road. That is 
my ultimate goal.
    I have been on the scene of terrible crashes and I do not 
want to continue to go on those scenes. I want to remove those 
drivers from the road, whether they be in cars or trucks, it is 
irrelevant to me. I want to make the road safer. That is our 
goal.
    One way to do that and probably the most effective way to 
do that, given the data that we have, make sure that data is 
the highest quality possible, it is accurate, it is uniform, 
and then use that data to prioritize and identify those 
carriers that should not be on our roads, and target those 
carriers and remove them from our roads.
    If we use the data, we are data driven to begin with, if we 
use the performance data to identify those carriers and spend 
the majority of time focusing on those folks, removing them 
from the highways, those carriers, like you say, who are 
compliant, and a great majority of them are, those carriers 
that are compliant, allow them to continue to operate as they 
should.
    Mr. Walz. When we come back around I want to get at this 
issue, Mr. Chairman, I think that is exactly what Mr. Williams 
and Mr. Stocklin--the issue I have is the ability for them to 
be able to know who that bad actor is before they get them.
    At times, I do feel like they are forced to almost take 
this person. There is a shortage. This is a tough business. It 
turns over. If you end up getting someone where you do not have 
a background they have been convicted of this or whatever, that 
does seem inherently unfair and wrong, and they do not have the 
resources to weed them all out at this point.
    Mr. Petri. Thank you, Mr. Walz. Mr. Rice?
    Mr. Rice. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here today. It is certainly an educational 
experience for me.
    Mr. Stocklin, I want to hear from you. I want to hear about 
what you think about these onboard recorders, how much do they 
cost, how effective are they, do you think they are something 
that is really going to bring down the accidents? I want to 
hear your opinion, sir.
    Mr. Stocklin. I do not really know anything about the 
onboard recorders. Probably if they force me to do it, I will 
just quit. They may work in large companies because they can 
keep track, where you get these bad guys on there that cause 
you nothing but problems.
    I am kind of looking at it from a different perspective 
because I am one truck, one guy. I only have to worry about me. 
I have a good safety record and my whole goal is to be safe 
while I am driving all the time.
    I do overdimensional, overheights, overwidths, all the 
time. That is what I do.
    I have trained quite a few guys and watched them leave. 
Just trying to make the money, running too cheap, because it is 
all about the money, they do not take care of their trucks 
because they do not have any money because they are running too 
cheap.
    In other words, you have to make enough money to maintain 
your truck, make your house payment, and all those things you 
need to do. I am looking at this as an one truck guy. It is 
hard to do. It is not easy. I have been doing it for years. It 
is all about the money with trucks going down the road. Some 
guys, you know, run for $1.50 a mile, think they are making 
money and they are not.
    Mr. Rice. You acknowledge there are bad actors out there.
    Mr. Stocklin. Absolutely.
    Mr. Rice. People who will falsify writing down records?
    Mr. Stocklin. Yes. Just a few weeks ago----
    Mr. Rice. How do you attack that if you do not have these 
onboard recorders?
    Mr. Stocklin. I do not know. For me, I do not run illegal 
anyhow. I guess for those guys, that is what you need, and 
maybe you should look at their safety record so far, maybe you 
should put that recorder in their truck, just like you do when 
guys get DUIs, they have to blow in the little thing. You see 
my point.
    Let the good guys, the guys that do a good job take care of 
that. I do not know what the cost is. It could be $4,000. I do 
not know.
    It is all about how much more it costs you to run, just 
like this 34-hour restart, I run from coast to coast, I may go 
to the Midwest, from the time I load to get to the Midwest, and 
I have curfews, I have daylight hours, all this, it may take me 
five and half days, total days, to do that in one direction.
    Then I sit there and I have to wait that 168 hours out 
before I can do my restart which I am sitting there for 
nothing. It is actually more tiring to sit there for extra 
days, you are not accomplishing anything.
    Mr. Rice. If you could change one aspect of this new rule, 
what would it be?
    Mr. Stocklin. I would leave the 34-hour restart exactly the 
way it is. I never run over my hours. I have plenty of rest. A 
lot of it is the time of the week or when you haul the freight. 
I try to haul freight in the right time of the week where I am 
not in the traffic. I try to stay out of traffic as much as I 
can.
    Mr. Rice. If this 34 hour rule stayed the way it is, you 
would be happy with it?
    Mr. Stocklin. Yes, absolutely.
    Mr. Rice. I am running out of time. Mr. Hinkle, average 
drive time for your drivers from point A to point B, what is 
your average drive time?
    Mr. Hinkle. Probably 15 to 20 minutes to 30 minutes, 
somewhere in that range.
    Mr. Rice. If they are driving 30-minute increments, they 
are waiting 15 to 20 minutes or up to an hour or more; right?
    Mr. Hinkle. Could be. In our operations, driving time never 
really comes into play. It is the on-duty time. In a common 14-
hour day, 5 hours----
    Mr. Rice. You think a 30-hour mandatory break would 
decrease driving fatigue if they are only driving 15 to 20 
minutes?
    Mr. Hinkle. That is our whole thing, having to mandate they 
take a 30-minute break, that is not going to increase their----
    Mr. Rice. One-size-fits-all requirements do not really 
work?
    Mr. Hinkle. Absolutely not.
    Mr. Rice. Thank you, sir.
    Mr. Petri. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. I am sorry I have 
been in and out. I may be asking questions that have already 
been addressed.
    I am wondering why the release of the U.S. Court of Appeals 
continues to be defied when it comes to revising the hours-of-
service ruling. Anybody?
    Ms. Claybrook. The first court decision was made in 2004. 
After the court ruled they made one minor change, and the 
Federal Motor Carrier Safety Administration just reissued the 
rule, because that is what they wanted.
    I do not know if they thought they were going to be sued 
again. I was very much involved in that litigation. We decided 
to sue again because they had essentially ignored the Federal 
Court of Appeals. The court of appeals then ruled again in 
2007. FMCSA did the same thing yet again.
    Mrs. Napolitano. Twice?
    Ms. Claybrook. Twice. When the new Administration came in 
in 2008/2009, it asked if we would hold off on the new 
litigation until they could develop a new rule. We agreed to do 
that. They developed a new rule which we considered to be a de 
minimis improvement in safety.
    We sued again. That is the case that is now pending. It was 
argued in March 2013.
    Mrs. Napolitano. Is there any scientific data there to 
support that an increase to 11 hours actually improves safety 
for a truck driver and any studies that verify driver 
performance increases after 10 hours of driving?
    Ms. Claybrook. No, just the opposite. The scientific 
evidence shows that after 8 hours of driving--which is what 
other full-time employees in America work--truck driver 
performance degrades. By the 10th and 11th hour, it is really 
bad.
    Really, I know the industry will go crazy when I say this 
but what should happen is drivers should be paid by the hour, 
and they should be paid overtime when they work overtime and 
over 8 hours a day.
    The 10-hour rule which was in effect for 70 years was 
something we thought ought to be reduced, and instead, it was 
increased.
    Mrs. Napolitano. Thank you. The Highway Patrol in 
California has given me some information. They are telling me 
there are many unemployed, but why cannot the trucking industry 
hire and retain drivers. They say it is 20,000 to 25,000 short.
    You are right, maybe paying them hourly might change the 
ability for them to be a little safer.
    Ms. Claybrook. I think the life of a truck driver who works 
14 hours a day when everyone else in America works 8, that is a 
pretty miserable existence. A lot of drivers quit the business 
because it is a really, really tough job. That is one of the 
reasons they have a shortage.
    If you look at what they are paid in relationship to the 
amount of time they work, it is a pretty low pay. They get 
better jobs.
    Mrs. Napolitano. I am being informed the median is almost 
$38,000. If they work 70 hours, it works out to $11.15 an hour.
    Ms. Claybrook. That is right. It is a very small amount of 
pay. It is above minimum wage but not a whole lot.
    Mrs. Napolitano. The other area that concerns me is the 
health risks and life expectancy associated with trucking. I 
have known several of them and it is the nature of the job, 
whether it is diesel exhaust, body vibration, excessive noise, 
the constant shift changes, the roadway dangers.
    They are reduced to 61 years, 60 years, less than average, 
and the high risk would be in personal injury, high blood 
pressure, heart attacks, diabetes, obesity, cancer, liver, 
kidney, bowel and bladder issues, sleep abnormalities and 
hearing loss.
    Is that worth it?
    Ms. Claybrook. A lot of drivers do not think it is. In 
addition, as I mentioned in my testimony, it is one of the more 
dangerous occupations in America; the likelihood of being 
killed is higher than in many, many other occupations, in 
addition to all those other health risks.
    Mrs. Napolitano. Thank you. Does anyone care to respond?
    Mr. Stocklin. You are asking about health issues?
    Mrs. Napolitano. Yes.
    Mr. Stocklin. Number one, in the truck stops, they do not 
have any good food.
    [Laughter.]
    Mr. Stocklin. Number one. That is a fact. These guys sit in 
there for 2 to 4 days waiting to get reloaded, like it would be 
with a restart, more time sitting in a truck stop. All they 
have is junk. They are way overweight.
    I am 65 years old. I have been doing this for years. It is 
the industry. It is the truck stops. It is the whole thing. It 
does pay those guys cheap. It is cheap pay to them. That is why 
you have a hard time getting them.
    Mrs. Napolitano. Thank you. Thank you, Mr. Chair. I have 
other questions for the record.
    Mr. Williams. Mr. Chairman? Can I respond to that very 
briefly?
    Mr. Petri. Very briefly.
    Mr. Williams. I think there is some research, data from 
trucks involved in fatal accidents, a study done in 2007, where 
in fact the 11th-hour driving was in fact the safest hour of 
the day. There was only 1 percent of the accidents that 
occurred in the 11th hour of driving compared to all the others 
that were measured.
    Secondly, in regard to driver pay, our starting driver will 
make $50,000 a year and it goes up. There is an awful lot of 
truck driving jobs in this country that pay $100,000. Also, 
there is an awful lot of the major truck stop people that are 
providing health centers now and better options for food.
    I can tell you drivers will stand and eat, given the 
chance. You can lead a horse to water but you cannot make him 
drink.
    Ms. Claybrook. Mr. Chairman? Could I just comment 1 second 
on that? I just want to say the 11th-hour driving reveals lower 
deaths in that particular study because there were fewer 
drivers driving the 11th hour. You have to look at the data. 
That is not scientific. Thank you.
    Mr. Petri. Mr. Ribble?
    Mr. Ribble. Thank you, Mr. Chairman. Thank you to the panel 
for being here. I would like to start with Mr. Williams.
    Mr. Williams, I spent 35 years as a commercial roofing 
contractor before coming here to Congress. I need a 30-minute 
break because I am getting fatigued being here.
    My question is this, it was my observation that if we could 
get a new employee beyond 6 months without an accident, we 
typically had a pretty safe employee. A lot of stuff happened 
in the early times. It was not whether they worked long days or 
short days, it was the amount of safety training they had and 
experience.
    Could you talk a little bit about that? Also, would you 
tell me whether you believe this rule is going to affect the 
ability for you to recruit new drivers to this trade?
    Mr. Williams. Thank you. Those are really great questions. 
Historically, we were a company that hired only experienced 
people. Last year, we actually hired 1,069 individuals, 922 of 
which we trained, 86 percent, at a cost of close to $8 million.
    That is just because of the demographics of our workforce 
has changed dramatically. We have an awful lot of people that 
are leaving the industry because of age.
    In the LTL industry, the unionized LTL industry, Wal-Mart, 
for example, has a lot of the top line jobs, there is an awful 
lot of people that are exiting the industry because of 
demographics.
    We are compelled if we are going to seat people in our 
trucks to reach out and train to do that. The important thing 
is that training be done correctly and we are using driver 
simulators to simulate situations, hands on training. It goes 
on for up to 10 weeks depending on a person's level of 
experience. There is a tremendous cost associated with it.
    The good news is that it works. We are actually putting up 
some of the best safety numbers in the industry as a carrier 
using people that have tremendously less experience than they 
previously had.
    A training requirement and ability to train properly in the 
world we are living in and the challenges we are going to face 
with changing demographics going forward is going to be really, 
really important.
    Mr. Ribble. Would it be more important than hours-of-
service changes?
    Mr. Williams. I do not think I am capable of distinguishing 
that. I truly believe in getting the hours of service right. I 
think there are limits to that, as to how much a person needs 
to work. I agree with that completely.
    I do believe that losing the 34-hour restart is going to 
lessen our driver's home time, which in fact is going to make 
it more difficult for us to keep a driver working for us. Most 
of our drivers are home every weekend.
    This will prevent that from happening, and that will 
increase turnover, which we had an industry leading turnover 
rate of 59 percent last year, to me, it is pathetic, but it is 
almost half of what the balance of the industry is.
    As the economy heats up, you are going to see driver 
turnover move up as people move around from company to company 
trying to find a better job. That is not good for anyone 
necessarily.
    The 34-hour restart will probably be problematic from a 
retention standpoint, not so much for attracting people.
    I would also maybe use this opportunity to say that the 30-
minute break and the part that we really want to point out is 
in order for us to get the 30-minute break, it will probably 
take us an hour in order to achieve that.
    These trucks have to get off the road, go through an 
intersection, get into a truck stop, take the 30-minute break, 
and start that process over again.
    I am not saying that the 30-minute break is wrong, I am 
just saying the impact on the industry is not 30 minutes, it is 
more of an hour. I just wanted to point that out.
    Mr. Ribble. Mr. Stocklin, first of all, I want to thank you 
for coming. I want to thank you for your service in Vietnam. I 
know you have come all the way from Washington State and you 
are an independent.
    What would you be doing today if you were not here?
    Mr. Stocklin. Trucking. My wife would make sure I was 
trucking, I guarantee that.
    Mr. Ribble. I appreciate that. I apologize if you feel that 
what is going on here is so important and affecting your 
business that you had to come from your business to tell us 
these things.
    In your testimony you said if we get in an accident, 
regardless of fault, it is our truck that is in the shop, we 
have to pay the out of pocket to get it fixed, we will not be 
out there hauling freight and earning money until it is fixed, 
the down time alone can mean bankruptcy for owner-operators.
    You say a little bit later regarding flexibility, 
``Flexibility means giving me, the professional truck driver, 
the ability to drive or take rest when I am best able to get 
the rest I need, and when I am best positioned to operate my 
truck safely and efficiently.''
    Do you believe that during the rulemaking process the 
Administration took into consideration those thoughts?
    Mr. Stocklin. No, they do not see it like I do at all. In 
order to see what really goes on, you have to get in the truck 
and go with me for a week, then you will know.
    Like I say, if I leave Seattle and have an overdimensional 
load, I go to the east coast or Midwest, wherever I go, I take 
5\1/2\ days to do the whole turn, depending on the situation, 
depending on weather, depending on all of the above, when I get 
there and I unload and I have to restart my clock, which I take 
my 34 and restart, I have plenty of time to do the maintenance 
I need to do on the truck, whatever I need to do, usually end 
up waxing it because I am so bored, I load my load, I try to 
load it in a certain time of the week where the traffic is the 
best, because in a lot of cities, I am in curfew, I cannot go 
through, so I have to do certain times.
    That is where Mr. Williams was saying half an hour is not 
just pull over and park for half an hour. Now you have to get a 
safe place to park so it takes you a lot longer. You could have 
an hour or more.
    This restart they want to do, it just takes more time for 
me to do it. It is going to cost me $30,000 or $40,000 this 
year for 1 year to do this. I will lose that money, which means 
less revenue to maintain the truck and do these different 
things.
    Mr. Ribble. Thanks again for being here and for your 
testimony today. With that, Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Mr. Carson?
    Mr. Carson. Thank you, Mr. Chairman. This is for 
Administrator Ferro. MAP-21 includes language requiring the DOT 
to issue final regulations establishing minimum entry level 
truck driving requirements, which would include both classroom 
and behind-the-wheel training for first time commercial 
driver's licenses.
    Can you talk a little bit about the importance of behind-
the-wheel driving, if you will? From what I understand, it was 
not even mandatory prior to MAP-21 language.
    I would like to know if you agree a truck driver should 
spend time behind the wheel of a truck before obtaining the 
CDL. I have seen numerous reports of driver training schools 
offering programs that advertise that drivers can obtain a 
commercial driver's license in as little as 24 hours or a 
shorter period of time.
    Will the upcoming rulemaking include a core curriculum that 
every driver training school must instruct before drivers can 
graduate?
    Ms. Ferro. Thank you, Congressman. Yes, I agree some level 
of behind-the-wheel training must be part of any sort of entry 
level driving training requirement.
    The agency has worked on this issue for a number of years 
and has been challenged to identify the benefits, the safety 
benefits of training in the longer term career of a driver.
    What is so challenging about this rule is that it is common 
sense. Everybody agrees. This is a very complex task. Drivers 
should be trained. They should be well trained. It should 
include behind-the-wheel training. The challenge is to find the 
research that documents there is a cost/benefit, a net benefit 
when you do this rule.
    We have undertaken that research. That research is 
underway. The rule is very important on our agenda. We have 
begun our working groups. We have done several listening 
sessions. We had a great listening session at the Mid-America 
Trucking Show in March and heard from lots of drivers about 
just the points you made, and what should the credentials of 
the trainer actually be.
    Today, some trainers have only had 3 months of driving and 
they are popped into a truck to train another driver. Drivers 
are saying they should have at least 3 to 5 years. I expect Mr. 
Williams would agree based on the investment he has made in 
training.
    Yes, I agree, and we are pressing forward. It is absolutely 
part of MAP-21, which is a positive development.
    Mr. Carson. Thank you. Mr. Chairman, I yield back.
    Mr. Petri. Mr. Williams?
    Mr. Williams of Texas. Thank you very much. I appreciate 
all of you being here. I, too, want to acknowledge the families 
that have lost loved ones. God bless your families.
    Also, I want to first of all say I am from the private 
sector. I have owned a business, still own a business, for 42 
years, car and truck dealerships, transportation.
    I want to thank Mr. Williams, Mr. Stocklin and Mr. Hinkle 
for your investment in the free enterprise system and for what 
you do. I appreciate that greatly.
    I guess what I would ask you is what can we do as Congress 
to help improve your industry and your safety, and at the same 
time, making sure that we help your business so you are able to 
do business and not be regulated out of business?
    I am one of those that I believe you know your business 
better than the Federal Government. There is no question that 
you want to be safe and safety is probably the most paramount 
thing you have.
    I would just like to hear what can we do? This is your 
chance to tell us. I am a business guy.
    I would just like to say one thing before you answer to Ms. 
Claybrook, in the private sector, many, many more people work 
more than 8 hours a day. I must tell you that. Eight hours is 
not the standard. I found that only to be frankly since I have 
been up here in the Federal Government.
    With that being said, Mr. Williams, let us know how we can 
help your industry.
    Mr. Williams. I think there is a proper amount of 
regulation. I have done this--I started the company 33 years 
ago, recognized as a leader in safety. I am very proud of our 
people. We do a really good job with the challenges we face.
    I have also seen the good, the bad and the ugly in 
trucking. I can say that left without any regulatory oversight, 
the trucking industry, like many other industries, will not be 
what we need it to be to meet the fundamental challenges we are 
going to face in the years ahead with congestion and growth of 
the economy and all of the above.
    I think it is important that we encourage and continue to 
evolve in the proper regulatory oversight. Again, I give credit 
to Ms. Ferro and her group for the work they have done on CSA 
and their willingness to continually try to make things better 
that maybe needed additional tweaking.
    Again, I think it is important we understand the necessity 
of good regulations, to ensure constraints are placed upon the 
people that need to have constraints placed upon them.
    By the name of my company, Maverick, it kind of implies I 
do not really like to be hemmed in too much. I am not sure 
which came first, the name or whatever.
    The fact is there are constraints that must be placed upon 
us in order for us to have a positive outcome that we need to 
have. I would say just continually committed to listening and 
willingness to modify and change and improve. We all believe in 
continuous improvement or we really will not be around here 
much longer anyway.
    Mr. Williams of Texas. Thank you. Mr. Stocklin?
    Mr. Stocklin. I think there are a few things you can do. I 
think you need to make sure when they are doing the training on 
some of these people, I have seen a lot of trucks that come 
into truck stops that cannot even back into a parking place or 
back out of one, I have actually had to do it for them, and I 
ask them how long have you been driving, they said oh, like 2 
months, and where did they get their driver's training, I do 
not have a clue.
    I think some regulation is fine but too much is going to 
put the little guy out of business because you just cannot 
absorb the cost of it. That is just my opinion from what I can 
see.
    Mr. Williams of Texas. Mr. Hinkle?
    Mr. Hinkle. In the ready mixed concrete industry, just like 
Mr. Rice brought out, the regulations are not one size fits 
all. The short-haul or the ready mixed industry is a totally 
different animal when it comes to looking at hours of service, 
on-duty time, driving time.
    We need to look at that specific industry, just like we 
have exemptions for agriculture, the ready mixed industry is 
different and we would like to be looked at and see if we can 
adjust the regulations to help us.
    Mr. Williams of Texas. Thank you. Thank you, Mr. Chairman. 
I yield back.
    Mr. Petri. Thank you. Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. I would like to just 
start out by acknowledging the families that are here for their 
loved ones. I assure you if the same thing had happened to my 
family, I would imagine I would be sitting right where you are.
    That having been said, I have to say that I am concerned 
that maybe we are getting the cart before the horse here, in 
deference and in honor of the folks that have lost their lives 
and your families, I want to make sure we are getting to the 
point. I have to be truthful, I am not sure we are.
    As I read this, there is a restart field study that I guess 
is required. I do not know if that is part of or if it is 
something separate than the real-world study.
    Ms. Ferro, if you could let me know if those are the same 
thing or if they are two separate things.
    Ms. Ferro. The study that supported the development of the 
rule and restricted use of the restart was a laboratory study, 
with the theory that if an individual has a challenge sleeping 
with recovery sleep, after this kind of a grueling schedule, 
with the current restart, under ideal conditions, then imagine 
what it will be like with someone who is not as healthy----
    Mr. Perry. Are there two studies or one study?
    Ms. Ferro. That is the first study. The second study is 
mandated under MAP-21 and it is the field study that we 
launched as soon as MAP-21 was enacted. The first driver was 
entered into the actual field test----
    Mr. Perry. It is not complete yet?
    Ms. Ferro. It is underway now; that is correct.
    Mr. Perry. The first one, the restart, is that one 
complete?
    Ms. Ferro. The lab study is complete. That is very much a 
part of what is supporting this rule in the context of the need 
for recovery----
    Mr. Perry. The real-world study is not complete yet?
    Ms. Ferro. That is correct.
    Mr. Perry. The first one is a lab study?
    Ms. Ferro. Yes.
    Mr. Perry. The rule goes into effect July 1?
    Ms. Ferro. That is correct.
    Mr. Perry. Why are we not getting all the information 
before we--it seems to me you have incomplete information. I 
hear some of the episodic data here.
    Let me ask you another question because that is somewhat 
rhetorical. With all due respect to the folks in the agency and 
so on and so forth, what is their experience? The people that 
are making this rule, that are writing the rule? I hear you are 
receiving testimony and so forth. Have they driven a cement 
truck? Have they driven 80,000 pounds across country? What is 
their experience level?
    Ms. Ferro. We have plenty of employees who have prior 
industry experience. They are either CDL holders themselves and 
in some cases CDL holders, prior safety managers, a specific 
number of this team was a dispatcher and safety manager in the 
industry.
    Yes. Is that the basis on which we hired them? No, but they 
bring all that perspective to the table.
    The hours-of-service rule that takes effect on July 1st is 
based on years of peer-reviewed research, more current research 
into fatigue and its impact on workplace safety, and 
specifically with regard to the 34-hour restart, a study to 
examine how that restart used under today's rule, where a 
driver could actually run up to 82 hours in a week, how that 
contributes to chronic fatigue week after week after week.
    The majority of the industry does not maximize the use of 
that 34-hour restart. In fact, they do not even have to use it. 
It is a voluntary restart provision.
    The vast majority of the industry does not run the 
currently mandated limits of 60 hours in 7 days or 70 hours in 
8 days. Those limits existed prior to 2003. They existed during 
the 2003 and subsequent rule, and they exist under this current 
rule.
    The only difference that happened between 2003 and 2013 is 
that 60- and 70-hour workweek could be restarted sooner with 
the use of that 34-hour restart. Again, it is lab based in 
terms of specific to the restart, but the science behind 
fatigue, the impact of chronic fatigue on a driver's health, 
the impact on fatigue on a driver's safety, are absolutely 
solid research.
    Mr. Perry. From my background, I am fairly familiar, but I 
can tell you from personal experience that I can leave home to 
come here, I could pull over within 15 minutes and take a nap 
on some days because I am tired before I leave.
    I can also tell you overseas in a combat zone, I went days 
without sleeping and still operated safely and operated complex 
machinery safely.
    I just feel like we are throwing this rule out which does 
not support Mr. Hinkle's business at all. I have also been a 
contractor that received plenty of loads of concrete where the 
guy on the truck, unless he is pulling the lever, he is just 
standing there waiting for me to get done with my work, and he 
is getting plenty of rest while I am toughing it out.
    I feel like this one-size-fits-all approach is not in line 
with the practical reality of what is happening in the 
industry. With all the input you have gotten, it seems like 
these folks from industry, this gentleman here represents 40 
percent of trucking, independent truckers, they disagree with 
your findings completely.
    If you have gotten all the input, it seems to me without 
the results of this final study, you are putting the cart 
before the horse in some respect and issuing the rule. Once 
these rules get issued, they get a life of their own.
    That is one of the problems people have with the Federal 
Government, it goes unbridled and there is no accountability 
and there is no turning back. It only gets worse from here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you. Mr. Hanna?
    Mr. Hanna. Thank you. I want to concur with Mr. Perry. The 
divergence between the practical and the real world and the 
theoretical world to me, as I listened to this conversation 
from all of you, could not be greater.
    I have heard accusations, Ms. Ferro, that you do not use 
science, that your opinions are subjective, they sound somewhat 
value based, that in fact there is some data mining.
    Long haul trucking for the 8 hours, it may be applicable to 
ask someone to rest for half an hour, but for the concrete, the 
asphalt, the aggregate delivery system, it has no bearing and 
yet we are perfectly comfortable costing these people maybe 
hundreds of millions of dollars over time, when it would be a 
simple fact, you could just exclude them from the process, 
local deliveries like that.
    You have heard Mr. Stocklin accuse the CSA of being 
impractical. You heard Mr. Hinkle say it is impractical. What 
these people are saying is they want to be safe, they want to 
run a tight, competent business. Their insurance companies, 
believe me, have more of a hammer over their head than you ever 
will.
    We have heard the State policeman say none of this may help 
or may or may not help without a way to monitor these people on 
an regular and scientific basis through these truck mounted 
devices, GPS devices, et cetera.
    All of this makes me feel as though we are creating a whole 
host of rules, confining a whole lot of people to do less, make 
less, cost the public more, and without doing the one thing I 
thought we were charged to do, and that is to do a study before 
we write the rule.
    Are you not concerned, Ms. Ferro, applying all of this, and 
arguably it is not all this way, applying these rules before 
the study is complete actually undermines the credibility of 
you and your agency?
    Ms. Ferro. There is a significant amount of research and 
study behind the rule that is taking effect July 1. Let me be 
very clear about that. It is substantial. It is a full body of 
peer-reviewed research and analysis. It is in the rule that was 
published. We incorporated it into our NPRM.
    When we issued the NPRM, we held an enormous number, really 
unprecedented number, of listening sessions.
    Mr. Hanna. Do not their opinions count?
    Ms. Ferro. Their opinions count a great deal.
    Mr. Hanna. Where do they count? Apparently, they do not 
count. Mr. Hinkle is sitting here telling you none of this is 
going to make things safer, to paraphrase, but it may make 
things worse. It may make the public pay more. In his case, 
asphalt, and I assume asphalt and concrete and other local 
deliveries, are completely irrelevant to what you are trying to 
talk about.
    Have you ever done a study about concrete specifically or 
asphalt specifically?
    Ms. Ferro. Two things. The relevance of what I am doing is 
all about safety, saving lives. The fact that the agency has 
been tremendously transparent and responsive to a host of 
concerns that were raised, where we went out and did listening 
sessions across the country, we heard a great deal of input--
this rule started out with the option of a 10- to 11-hour drive 
time. We were not sure. We had our finger on 10.
    Our research, our analysis, our listening sessions, all led 
us to conclude the 11-hour driving time is the right time, and 
in fact, it cut the cost of the rule by half a billion dollars.
    Mr. Hanna. Have you studied Mr. Hinkle's business?
    Ms. Ferro. Mr. Hinkle's business has the opportunity to 
take advantage of a 24-hour restart. They already have an 
exception in law that provides them the flexibility that he 
wants.
    Mr. Hanna. Mr. Hinkle, would you like to respond to that?
    Mr. Hinkle. It is the 30-minute break that we are concerned 
with. Thirty minutes consecutive is going to be a problem for 
our industry, where they get several breaks shorter than that, 
which I think are sufficient to keep their fatigue level down.
    Ms. Ferro. All right. The 30-minute break is a body of 
scientific research that goes well outside of the trucking 
industry, any sort of workplace science.
    Back to your original point, the concept and the challenge 
of this one size fits all, I think that is at the heart of much 
of what you have heard. I understand this.
    This is a very big industry. It is a very diverse industry. 
Half a million companies that we regulate across the country, 
some private, some for hire, some hauling steel, some operating 
locally within a 20-mile radius doing concrete.
    The agency long before I was here tried about 15 to 20 
years ago to do a rule that segmented out the sectors, that 
recognized short haul had a different operating environment, 
construction had a different operating environment, oil fields. 
That was roundly panned. That thing did not see the light of 
day beyond the NPRM.
    I am not saying that should not be examined again, and my 
sense is with the use of electronic logging devices, with 
improved registration requirements, we will be able to look 
again at that concept of segmentation, but today, it is true, 
the best structure we can use is a rule that constrains the 
margins of abuse while still sustaining the vast majority of 
today's operation in a very healthy and productive way.
    Mr. Hanna. Thank you, ma'am. My time has expired.
    Mr. Petri. Mr. Duncan?
    Mr. Duncan. Thank you very much, Mr. Chairman. I had to 
come late to this hearing because of another hearing. I did 
hear Mr. Williams, part of his testimony, when he said these 
new rules are just not supported by the facts or evidence. I 
have been in and out.
    It seems to me that the gist of the testimony of all the 
witnesses who work in this field seems to be that they just 
need and want more flexibility. And I actually can understand 
that. These truck drivers are human beings. They are not 
computers or machines. People need different amounts of rest. 
They need different--they have different body clocks and so 
forth. And it seems to some people that these new regulations 
would keep drivers from splitting up their break time and 
really adjusting in the way that they need to.
    But, Administrator Ferro, is it correct that these new 
rules are in litigation at this time? They are in court right 
now?
    Ms. Ferro. That is correct. Oral arguments were heard March 
15th of this year.
    Mr. Duncan. Would it not have been better to have given the 
courts the time to determine if these regulations--I mean what 
happens if we put these in effect, then the court turns around 
and throws them all out?
    Ms. Ferro. In my view, it is not worth the trade off of 
losing the safety benefits today while we are waiting for the 
court decision. And I say that for two reasons: One, the safety 
benefits of improved driver rest for those operating at the 
margins and their health are significant. Second, I have very 
high confidence that the rule is strong. It will be upheld by 
the court.
    The last time there was a court challenge, I think it took 
almost a year for the court--the court has a lot on their 
plate--a year for a decision. We could have conceivably had to 
delay this rule a year or more. It was put into effect. It was 
finalized almost a year and a half ago. So, there has been lots 
of time for folks to prepare.
    Mr. Duncan. Was Mr. Williams incorrect when he said that 
these deaths and accidents were going down significantly over 
these last few years?
    Ms. Ferro. He was correct. I used some of the same data in 
my opening remarks. He is absolutely correct, and that is very 
positive news. And it does not stop us from driving forward 
towards getting to zero.
    Mr. Duncan. Let me ask Mr. Hinkle and Mr. Stocklin and Mr. 
Williams, these Federal agencies come up with these comment 
periods to make themselves feel like they are getting some 
public input, but they really do not. They get comments from 
the professionals and the lobbyists and so forth, but from the 
ordinary people, they hear very little. Have any of you--have 
your drivers been polled or has there been any significant 
effort, have some of these Federal officials come to your 
locations to interview your drivers? Or have you heard about 
that happening any place? Mr. Williams, has that happened at 
your business? Or, Mr. Stocklin, has that happened to you or 
drivers that you know? Or Mr. Hinkle?
    Mr. Stocklin. No, it has not happened to me at all. Nobody 
has asked me any opinions of what--how it should be. I just 
want to say one thing, part of this 34 restart, and the money 
that you would lose, and they are all concerned about safety, 
well, part of safety is maintaining your equipment. And if it 
costs you money, and you cannot, you lose that money to 
maintain your equipment, is not that part of safety? You have 
got to do brakes. You have got to do tires and all of these 
above things.
    Mr. Duncan. Mr. Williams, how many drivers do you have?
    Mr. Williams. About 1,450. And I would have to say that the 
listening sessions were very publicly acknowledged. I think 
CVSA would probably agree with that as well, that they did a 
really good job on their listening sessions. And I had many 
drivers of ours that did participate in those. And then, of 
course, in the radio blitz and everything that they did as 
well.
    Mr. Duncan. Do your drivers support these new rules?
    Mr. Williams. Well, no, our drivers do not like the 34-hour 
restart, anticipated challenges--changes in the 34-hour 
restart. They do not particularly like having to take the 30-
minute break. So, no, it is--yes, I have heard their voices, 
and I have passed those along. And they have spoke them 
individually at a lot of these different listening sessions.
    Mr. Duncan. Mr. Hinkle?
    Mr. Hinkle. Well, I can tell you at Chandler Concrete, we 
spent the last 3 to 4 weeks going through bringing all our 
drivers in and going through all the changes that are coming up 
because we are going to comply one way or the other, whether we 
agree or not. Do they like it? No. Just like I said, the 30-
minute break is the biggest issue with us. And basically they 
are going to lose 30 minutes of pay a day.
    Mr. Duncan. Alright, thank you very much.
    Mr. Petri. Mr. Mullin?
    Mr. Mullin. Thank you and thank you for this opportunity. 
Mr. Williams, Mr. Stocklin, Mr. Hinkle, I kind of feel what you 
guys are talking about. I have said this over and over again 
that our biggest threat anymore to our companies are Federal 
Government trying to comply and still be profitable.
    And, Mr. Stocklin, I found it very interesting that you 
said, ``I will just quit.'' It is not because of your safety 
record. It is not from the fact that you cannot manage your 
company and make a profit. It is the fact that it is going to 
eventually get not worth it, where you cannot invest in it 
because, see, there is a fine line between a 7 percent profit 
margin and being able to reinvest in your company, and 6 
percent profit margin when you just try to maintain your 
equipment. And when you just try to maintain any company, you 
begin to die.
    And that is the reason why I sit in front of you today 
because we also have over 80 trucks on the road. And what Ms. 
Ferro and some other groups are trying to push, just simply, it 
does not add up with the industry. If you look at the industry 
since 1975--since 1975, 77 percent fatality--we have reduced 
fatality rates by 77 percent. There is something to be said 
about that. And I commend the industry for the work that you 
guys have done, constantly working on trying to improve the 
safety records of our own companies. As I tell everybody, it is 
our best interest. None of us want to have an accident. It is 
our companies, and it is the lives of those who are around us 
too.
    Ms. Ferro, I have got a quick question, and then I am going 
to kind of switch gears. But, as you are probably aware, I 
introduced a bill, H.R. 1097, that would ensure the on-duty 
times not included on--not include waiting times and natural 
gas and oil sites for operators of commercial vehicles 
transporting supplies and equipment. This is an exemption that 
had been place for over 50 years, and for some reason it was 
taken away in 2012. Can you explain why that was taken away?
    Ms. Ferro. Congressman, thank you for that question. The 
exception policy that applies for oil field operators was not 
taken away. There are two provisions. One allows oil field 
operators and servicing organizations to----
    Mr. Mullin. It actually has been taken away because we are 
not allowed--a wait time is not included anymore when we are 
sitting at a drill site. So what do you mean? It has been taken 
away.
    Ms. Ferro. So the first provision uses a 24-hour restart. 
They take full advantage of it, not unlike the concrete 
industry.
    The second exception that you are speaking of that was put 
into place by the Interstate Commerce Commission 50 years ago 
provides an exception to on duty----
    Mr. Mullin. I know what the exception is. What I am saying 
is why is that exception not provided anymore? Why was it taken 
away in 2012, increasing the number of trucks on drill sites 
now, increasing the costs to deliver those supplies have 
increased now. Essentially, when they are waiting at a drill 
site, it is like a country truck stop. They can go in and get 
coffee, watch TV, do whatever they can. But now that is having 
to count as on-duty time.
    Ms. Ferro. Yes, we restated the exception that was put in 
place by the ICC 50 years ago to allow special equipment that 
requires specialized training to operate in the oil fields an 
exception from the on-duty nondriving time. The entities that 
were excluded from that from the beginning and today now, since 
they are operating in much higher numbers, are generally water 
trucks and sand trucks.
    Now, again, we had a comment period. We received lots of 
good input.
    Mr. Mullin. I almost crack up all the time when I hear 
agencies saying we had a comment period, a comment period, a 
comment period. It does not. The fact is that the industry rate 
just went up. The trucks on the road have increased. And we 
have wrote letters to you. We have got zero reply. We have 
introduced a bill, and have got zero comment from you guys on 
this.
    Ms. Ferro. Yes.
    Mr. Mullin. Now, with that being said before my time runs 
out. Mr. Hinkle, you made a comment that you think we would be 
smart enough to figure out exemptions on this when we are 
talking about 30-minute down times. That does not always exist 
in DC. I am sure you are probably aware of that. But, Ms. 
Ferro, you made several comments suggesting to Mr. Hinkle and 
the Concrete Company of how they could do things. Have you ever 
been in a concrete truck? Have you ever been to a job site? 
Have you ever ran a full 24 hours with any construction 
company?
    Ms. Ferro. No.
    Mr. Mullin. So, for you to make suggestions is saying that 
every party that graduates from a college with a business 
degree is going to be successful in business. You talk about 
these researchers and these studies and all this, but you have 
no practical experience yet. Until you have practical 
experience, what you have learned in college and what you have 
learned from research and all these studies is just numbers and 
it is just paper. It does not really apply yet.
    My suggestion would be why don't you go and visit the job 
site? Since you are the head of the department, since you are 
the one making these rules, why don't you go to Mr. Hinkle? I 
bet you he would allow you to run 1 day in his company, and see 
what he is talking about by this time that is waiting, these 
individuals. Why it does not make any sense why someone would 
have to stop for 30 minutes when they stop every few--every 
hour or why they are sitting there waiting for their truck to 
be loaded, why they would all of a sudden have to stop. What 
would be so hard about you actually going and getting hands-on 
experience other than just having studied? You would probably 
learn a lot more.
    Ms. Ferro. Nothing stops me, and I look forward to the 
invitation. And I will say I have been--several times reached 
out to your office to meet with you to talk about the very 
concerns you have raised, and for some reason that----
    Mr. Mullin. Ma'am, I have never--I would assure you I would 
meet with you in a heartbeat.
    Ms. Ferro. I would be pleased to.
    Mr. Mullin. We could meet tomorrow morning because I have 
never had your office reach out to me that I am aware of.
    Ms. Ferro. We will call, and we will set that up.
    Mr. Mullin. OK.
    Ms. Ferro. Thank you.
    Mr. Petri. Mr. Barletta?
    Mr. Barletta. Thank you. I am probably not one of the last 
people you want to speak to right now because my family was in 
the construction business, asphalt and concrete.
    When people ask me about Washington, I have a common phrase 
I usually say is that, ``Common sense is not so common in DC.'' 
And this hearing is pretty interesting because it reminds me of 
one we had last week about a rule. And I had a big problem with 
the rule. It was with HHS Secretary Sebelius, who tried to 
defend a rule that anyone under the age of 12 could not qualify 
for a lung transplant, that you had to be 12 or older in spite 
of the fact that the little girl that I was advocating for was 
10 years old. She had approximately 3 weeks to live. Her 
doctors at Children's Hospital in Philadelphia said that they 
could take an adult lung and modify it. This girl would have a 
good chance of living. However, the Secretary defended the rule 
that you needed to be 12. And we were OK with letting a little 
girl die because she was only 10.
    Now, I know this hearing is not at the same level as that, 
but it reminds me of that, that this is not practical. I 
understand what you are trying to do. My family was in the 
concrete business, was in the asphalt business. I had a line 
painting business where our drivers would drive 2 hours to a 
job site and sit on a job site and wait before we could paint 
the lines. When you are dealing with a business like in asphalt 
and concrete and line painting, and there are many others, the 
rule if it does not make sense, and we do not have the 
scientific data to claim that it is going to make anything 
safer, why do we do it? Why cannot Washington sometimes just 
use practical everyday common sense and still try to achieve 
the goals of making our roads safer?
    I offered an amendment to keep heavier trucks, triple 
trailers, off the road because I had a problem with safety. So 
I understand what you are trying to do, but it just does not 
make sense for so many businesses.
    Ms. Ferro. Congressman, I appreciate your comments, and I 
think I join so many in being impressed by the advocacy you 
exercised that saved that little girl's life. And I would 
suggest that today's hearing is just as significant because you 
are talking about 4,000 lives. In the case of this rule, 19 
lives.
    Mr. Barletta. But do you have scientific data to back that 
up?
    Ms. Ferro. Absolutely.
    Mr. Barletta. But the 30-minute rule----
    Ms. Ferro. The 30-minute break.
    Mr. Barletta. The 30-minute break.
    Ms. Ferro. The 30-minute break, yes, absolutely improves 
the ability of that operator to operate more safely, to 
minimize the risk of any kind of cumulative fatigue with that 
quick 30-minute break. They are more alert behind the wheel. 
They are more ready to respond if someone does----
    Mr. Barletta. Well, how do they--I guess I just cannot 
understand how they could do that study. When you are 
delivering asphalt, you are driving the truck. Then you are 
getting in line, waiting to back into the paver. The driver is 
sitting there. I just do not understand how they assess a 30-
minute break when there may be periods of breaks throughout the 
day. Every day is different. How do they accomplish that?
    Ms. Ferro. Well, it sounds though we are not that far 
apart. Certainly, I have watched many a construction site. I 
have certainly been around a lot of construction folks. And you 
and Mr. Hinkle both identify the number of breaks that 
operators are taking just by virtue of the cycle and the 
schedule and moving product quickly and moving it fresh. And 
then going back for more. I do not think that we are that far 
apart in understanding how those breaks work in that operation. 
I am not sure where else to go on that point other than again 
to reinforce----
    Mr. Barletta. But how does another----
    Ms. Ferro [continuing]. This rule is research-based.
    Mr. Barletta [continuing]. Thirty-minute break when there 
may be periods of breaks throughout the course, how does 
another 30-minute break increase the safety?
    Ms. Ferro. It is not another. It is taking advantage of 
existing breaks they are already taking. It is the simple fact 
that the break itself improves the safety performance of that 
operator after the break, within that first hour after the 
break.
    Mr. Barletta. So even if they have had four 30-minute 
breaks during the course or five 30-minute breaks, adding 
another 30 minutes----
    Ms. Ferro. They do not need another one. They only need 
one. They only need one. Under this rule, they only need one 
within the 14-hour workday. And it has got to occur some time 
before that operator gets behind the wheel after the eighth 
hour of work, just one under this rule. So, if he is already 
doing four, if your guys were doing four, my gosh, they are way 
ahead of the curve, and they are probably much more alert as a 
result of that.
    Mr. Barletta. So if they are just sitting alongside the 
road waiting to unload into the paver, how do you enforce that? 
How do you enforce that? They are not keeping a log, so how 
enforceable is that?
    Ms. Ferro. That is the challenge. It gets back to Major 
Savage's point. The enforceability generally comes through 
compliance reviews in this case until we have electronic logs 
in place. Now, in the case of those operators, because, again, 
you are right, they are not keeping logs, they need to measure 
it within their normal timekeeping system.
    Mr. Barletta. But how would you enforce whether or not 
somebody complied or not? I mean there is no record of whether 
or not, so basically it is up to the driver to say I did not 
have a 30-minute?
    Ms. Ferro. It could be. It could be driver interviews. It 
could be, you know----
    Mr. Barletta. How else other than that?
    Ms. Ferro [continuing]. Outside observation.
    Mr. Barletta. How else other than that? How else other than 
that if there is not a log----
    Ms. Ferro. Yes.
    Mr. Barletta [continuing]. Could you determine whether or 
not they had the 30-minute break or not? Other than the driver, 
how else could you determine?
    Ms. Ferro. Well, again, Mr. Savage can speak to it because 
he spent a lot of time doing compliance reviews and more 
inspection work. Thank you.
    Mr. Savage. Mr. Chair, Congressman, there are two ways that 
I would suggest we could enforce it. One would be to provide 
the enforcement officer with the ability to enforce it by 
giving--making a requirement that they keep supporting 
documents on the vehicle to confirm that the driver may have 
taken the time off. And the other thing is to increase 
enforcement through the MCSAP, which is a particularly 
effective program, and making sure the States are fully funded 
so that they can do the good work that the officers are doing 
on the road.
    Mr. Petri. Thank you.
    Mr. Barletta. Thank you, Mr. Chair.
    Mr. Petri. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. It looks like I am it, 
so your day is almost over. First off, the benefit of being in 
freshmen row here and going last is that most of my questions 
have been asked already, so I will not be redundant and ask 
them again. But thank you to all of you for being here today.
    Administrator Ferro, I actually want to say thank you. I 
want to say thank you on behalf of the agricultural industry in 
my district and the rest of the country for quickly issuing 
rules under MAP-21, exempting our agricultural producers. It is 
extremely important in my rural district.
    Secondly though, I am wondering if the FMCSA has considered 
exemptions or the issues faced by other companies that are 
involved in helping ensure that our crops get from the field to 
our elevators out into the global marketplace? For example, in 
Atwood, Illinois, in my district, a company repairs grain 
elevators. And during harvest, their technicians can spend up 
to 5 hours driving to a site, 2 to 3 hours for repairs, and 
then driving home to be ready for their next job in the 
morning. And because of the weight of their trucks, they are 
included under the HOS rules.
    And in a letter to my office, the company's owner, Mr. 
Harris, wrote about the impact of these regulations. And I will 
quote him. He says, ``As you can see, driving hours accumulate 
quickly. Should we get caught, one fine could put us out of 
business financially. On the other hand, not responding ASAP to 
our customers' needs spells disaster for our business. Losing 
one customer can mean losing all the individual grain elevators 
owned by that company.''
    So, my business owner is in a conundrum. We have helped one 
portion of the agricultural sector with the exemption. Are 
there any ideas, any other opportunities we can have to make it 
a little more flexible for those who work in that same 
business?
    Ms. Ferro. Congressman, first thank you for your 
recognition of the agency's work and for the nature of that 
question. Of course, my starting point is to encourage all 
operations and operators and business owners to look at their 
operation and their customers' needs and work them within the 
pretty broad hours parameters that exist today. That is my 
starting position.
    Understanding that, the agency does have, and the law 
allows us to have, an exemption application process. Any 
individual company, or in some cases a sector, can apply to the 
agency for consideration for an exemption. And we will examine 
it. In some cases, some of these exemptions we are talking 
about, like the agriculture exemption, is enacted by Congress. 
In other cases, there is a broader authority.
    The condition we start from is that should an exception be 
granted or an exemption be granted, it has got to ensure that 
the operating condition is as safe or safer than the condition 
today.
    And so that inlet, I should say, to the process exists 
today. And I will be happy to follow up with your office and 
make sure your constituent has a clear understanding of where--
what that process is. It is spelled out on our Web site.
    Mr. Davis. I appreciate that. Speaking of that, how many 
exemption requests do you get on an annual basis?
    Ms. Ferro. Well, I will have to follow up. I can either 
lean out to my help line here if----
    Mr. Davis. Go ahead. I used to be part of the help line.
    Ms. Ferro. Thank you. Ten? Thank you very much.
    Mr. Davis. About 10?
    Ms. Ferro. About 10 per year.
    Mr. Davis. About how many of those are approved?
    Ms. Ferro. About 20 to 30 percent.
    Mr. Davis. Twenty to thirty percent.
    Ms. Ferro. Oh, pardon me.
    Mr. Davis. No, no, you are fine.
    Ms. Ferro. Yes, that is outside of the exception process 
that drivers apply for routinely for a vision exemption or a 
diabetes exemption. Those are a different process, much higher 
numbers. But in this case, it is--did I say a vision? Yes, or 
hearing. In this case, it is about 20 to 30 percent.
    Mr. Davis. OK, so about 2 to 3 a year out of 10 on average. 
My time is running out, and I know you all want to leave too. 
Can you provide my office with a listing of what those 
exemption requests were and the ones that were granted?
    Ms. Ferro. Certainly.
    Mr. Davis. So we can kind of get an idea of what to expect 
when we tell constituents about that process?
    Ms. Ferro. We certainly will, and we are required to post 
every one in the Federal Register. And we will provide all of 
that to your office.
    Mr. Davis. Well, thank you very much.
    Ms. Ferro. You are welcome.
    Mr. Davis. Thank you all. I yield back.
    Mr. Petri. Thank you. And I would ask unanimous consent the 
record for today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing. And unanimous consent the record 
remain open for 15 days for additional comments and information 
submitted by members or witnesses to be included in the record 
of today's hearing. And without objection, so ordered.
    Mr. Petri. It is very easy to get unanimous consent if you 
wait.
    Beyond that, I will really thank you all for a civil, 
somewhat contentious but very important discussion. And we hope 
it will help work things out as we go forward in a way that 
continues the improvements we have seen in highway safety over 
the last 10 years.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

</pre></body></html>
